U. S. Department of Agriculture
 Office of Inspector General
        Audit Report

      OFFICE OF CIVIL RIGHTS
  STATUS OF THE IMPLEMENTATION
   OF RECOMMENDATIONS MADE
      IN PRIOR EVALUATIONS
    OF PROGRAM COMPLAINTS




                  Audit Report No.
                  60801- 4 - Hq
                  March 2000
Executive Summary
                                                    This report presents the results of our review of
Results in Brief                                    the effectiveness of the U.S. Department of
                                                    Agriculture's Office of Civil Rights (CR) in
            responding to recommendations made by OIG to improve the efficiency of CR’s process
            for resolving complaints of discrimination in USDA programs. Questions concerning
            CR’s efficiency arose in 1996, when minority farmers and other socially disadvantaged
            participants in USDA programs protested that little was being done to resolve their
            concerns about discrimination in the award of program benefits. In 1997, it was
            determined that CR had a growing backlog of complaints, and OIG began a series of
            reviews of CR’s operations and its management of the backlog. Beginning with our
            February 1997 review, we put forward 67 recommendations to improve the efficiency of
            CR and the Farm Service Agency (FSA), the agency against which most of the
            complaints were brought. Fifty-four of our recommendations were addressed to CR.
            The Secretary of Agriculture requested this review to assess the status of the corrective
            actions CR has taken since February 1997 in response to those recommendations.

            The Secretary also asked us to review CR’s employment complaints process, which has
            come under recent criticism of its own. We performed reviews of both processes
            concurrently and are issuing the results of both audits under separate covers. (For issues
            concerning the employment complaints process, see Audit Report No. 60801-3-Hq.)

            CR has implemented 13 of the 54 recommendations we made concerning program
            complaints. Among the actions taken, CR has been able, after 2 years of activity, to
                                                                   1
            substantially clear the original backlog of complaints. In November 1997, the backlog
            stood at 1,088 cases; 10 months later, it remained at 616 cases; as of this report, it has
            been reduced to 35. We are recommending that CR resolve these 35 cases with all
            deliberate speed.

            Many other critical issues remain unresolved. Most notably, CR did not reengineer its
            complaints resolution process. Although CR officials had previously agreed that the
            system they used to process complaints was neither effective nor efficient and although
                                                                   2
            we recommended a major transformation of this system, no significant changes in how
            complaints are processed have been made. As a result, we cannot conclude that all
            complaints are processed with due care.



1
  CR defined its backlog as all complaints filed before November 1, 1997.
2
  See our Evaluation of the Office of Civil Rights’ Efforts to Reduce the Backlog of Program Complaints (Phase V),
dated September 30, 1998. The CR officials emphasized that the system was not designed by civil rights
professionals who would know the intricacies of complaints processing.

USDA/OIG/A 60801-4-Hq                                                                                     Page i
       We also note that CR’s method of clearing its backlog has raised a concern about the
       nature of its settlement agreements. Of the backlogged cases, 34 had been settled
       through agreements that awarded the complainants compensatory damages and relief
       from USDA debt. Damages awarded under settlement agreements are paid from USDA
       appropriations, and the awards in these 34 cases do not appear to satisfy all the
       requirements of appropriations law. Although the USDA task force that cleared the
       backlog recommended limited damages and debt relief in many cases, CR increased the
       amounts significantly but did not document its analysis of USDA’s liability. A
       Department of Justice opinion states that because damage awards are paid from
       appropriations, such awards should only be made if it is determined that a court would
       have made a similar award. Such a determination presupposes an assessment of the
       degree to which USDA was liable in the case. We found that the awards to the 34
       claimants who accepted settlement offers were not fully supported by documentation that
       reasoned USDA’s degree of liability. These claimants received $2.31 million in
       compensatory damages and $3.66 million in debt relief. In 8 of these cases, the USDA
       task force had found either no finding of an inference of discrimination or a low to very
       low potential of discrimination. None of these 34 settlements were reviewed by the
       Office of the General Counsel (OGC) for legal sufficiency.

       As noted above, CR has been slow to address our prior recommendations. The
       following table summarizes the correlation between our recommendations and the six
       reviews (phases) of our ongoing evaluation.

                                                                                     Not         Partially
                          Recommendations   Management Decision1   Implemented   Implemented   Implemented
              Phase I           14                  10                 5              5            4
                                                                         2                           3
              Phase II          16                  16                12              -            4
              Phase III          -                   -                 -              -             -
              Phase IV           -                   -                 -              -             -
              Phase V           29                   7                 4             15            10
              Phase VI           8                   2                 1              2             5
              TOTALS            67                  35                22             22            23
              1
                “Management Decision” is reached when OIG and CR agree which actions will likely correct
              the deficiency and satisfy the recommendation.
              2
                Nine of these recommendations were directed at the Farm Service Agency (FSA).
              3
                All four of these recommendations were directed at FSA.
            Table 1. Summary of Recommendations Made in OIG Civil Rights Reports.

       As the table shows, over three-fourths of the recommendations we directed at CR have
       not been fully addressed. Some of these issues were raised as long ago as our Phase I
       review in February 1997. The table on the following page summarizes the key areas for
       which our recommendations were made and in which uncorrected deficiencies persist.


USDA/OIG/A 60801-4-Hq                                                                             Page ii
                                                         OIG Evaluation Phases
                              Alert          I           II          Memo          IV            V           VI
        Issue               (02/25/97)   (02/27/97)   (09/29/97)   (12/18/97)   (03/04/98)   (09/30/98)   (03/24/99)      VII
Review State
foreclosure actions
                               !            !            !            !            !            !            !
Send letters of
acknowledgement
(Completed November 1997)                   !            !                                                                !
Develop and
maintain a data base
                                            !            !            !            !            !            !            !
Evaluate each
agency’s civil rights
staff                                       !            !            !            !            !            !            !
Clean casefiles
                                            !            !            !            !            !            !            !
Clear original
backlog                                     !            !            !            !            !            !            !
Publish regulations
                                            !            !            !            !            !            !            !
Reconcile casesfiles
with USDA agencies
                                            !            !            !            !            !            !            !
Write plans for
compliance reviews
                                            !            !            !            !            !            !            !
Followup on isolated
instances of potential
discrimination                                                        !            !            !            !            !
Find lost casefiles
                                            !            !            !            !            !            !            !
Use aging reports
                                            !            !            !            !            !            !            !
Train investigators
                                                         !            !            !            !            !            !
                                                                                                             !            !
Monitor Settlement
Agreements


               ! Condition originally noted and recommendation made. ! Condition continues.
          ! Corrective action partially completed. ! Corrective action take but not adequately implemented.




Table 2. Recurring Office of Civil Rights Issues


USDA/OIG/A 60801-4-Hq                                                                                                  Page iii
            Among the 22 recommendations that were not implemented are 5 that CR stated it had
            completed but that our review found incomplete. Several of these recommendations
            were in critical areas: we had asked CR to obtain legal sufficiency reviews from the
            Office of the General Counsel on 7 cases, to locate 40 files that were missing during our
            previous review, and to keep open cases that CR refers to the Food Nutrition Service
            (FNS) until it can be certain the cases are resolved. Of the 7 cases needing a legal
            sufficiency opinion, none has received one; of the 40 missing files, 14 remain missing;
            and of the 16 cases referred to FNS in fiscal year 1999, all were closed by CR on or
            shortly after the day of referral. We concluded that the complaints in these cases were
            not processed by CR with due care.

            In addition to the issues listed in Table 2 was a problem encountered after we issued our
            December 18, 1997, memorandum.                    The memorandum contained nine
                               3
            recommendations relating to instances of unprofessional remarks or behavior by FSA
            personnel that may have adversely affected minorities. We had recommended that CR
            review each of the nine confidential cases. However, without informing OIG, CR
            referred all nine cases to FSA for review. CR later recalled the cases at our direction and
            has taken action on four of our recommendations. The other five recommendations are
            still unresolved.

            In other areas of CR’s current operating environment, we found no substantial
            improvement. CR's data base and file room remain poorly managed. The data base still
            contains missing dates, incorrect closure codes, and incorrect file locations: 21 casefiles
            are still checked out to an employee who left CR over 18 months ago; 1,215 casefiles are
            not recognized as being in any location; and 16 casefiles are shown as missing. CR has
            installed a new data base that promises to overcome many of the current inefficiencies.
            The new data base will allow only authorized employees to make changes to the data,
            and it will identify employees that are accountable for cases. However, CR has not
            implemented new procedures for data entry, and it has not provided sufficient training to
            ensure data integrity. Unless CR employees are trained to use the new system, it will
            prove no more efficient than the old one.

            Given the condition of the program complaint files, we concluded that no document-by-
            document sweep of the files has occurred. Casefiles were still missing.

            To determine if CR’s client servicing had improved, we reviewed 188 cases that were in
            the earliest stage of processing or that had been closed during that stage. We found that
            many of the old inefficiencies were still in evidence. Over two-thirds of the closed cases
            had been closed even though the complainants had not been given an opportunity to
            provide the information needed to formalize the complaints, and nearly two-thirds of the
            complainants with open cases did not receive acknowledgement letters. Although CR
3
  Because these 9 recommendations were contained in a confidential correspondence to the Assistant Secretary for
Administration, they were not included in the 67 recommendations we issued through official channels.

USDA/OIG/A 60801-4-Hq                                                                                  Page iv
             has given itself 30 days to decide whether enough information exists to investigate a
             complaint, we found that it was taking an average of 126 days. At least 454 cases
             currently have exceeded this 30-day limit and may be considered backlog.

             CR has presented data to the Secretary that suggests it has made progress in its
             operations; however, we found that the numbers are misleading and do not accurately
             reflect the average time it has taken CR to completely process a program complaint.
             CR’s data base of open, perfected complaints does not show the time it took CR to
             determine that it had jurisdiction in the case, a time that in turn is not captured by CR in
             its average processing times. CR’s actual average processing time for 1999, for
             example, would include the 126 days it expended on intake as well as the 174 days we
             calculated that CR took on average to investigate and adjudicate each case, clearly longer
             than the 124 days CR claimed was its average processing time for that year.

             Of equal importance, CR has not maintained a consistent effort to acknowledge its
             receipt of complaints. Although it had sent Acknowledgment Letters to all complainants
             in the original backlogged cases, it has not been mailing these letters to new
             complainants in a timely manner and may not have sent some letters at all. Because the
             casefiles of 83 complainants were missing, we could not determine whether they
             received any acknowledgment of their complaints. Our Phase I review emphasized that
             complainants are not well served if the Department does not inform them of the status of
             their complaints.

             The 13 recommendations directed at CR that were adequately implemented include 4
             concerning the needed reduction of the backlog. In addition, CR issued departmental
             regulations governing the receipt, processing, and resolution of discrimination
             complaints. Another two recommendations were made during the formative stages of
             CR. We had recommended that the Department establish a uniform system that would
             hold designated USDA officials accountable for the receipt, processing, and resolution of
             program complaints within established timeframes. We had also recommended that the
             Department revoke the delegation of authority that granted FSA responsibility to conduct
             preliminary inquiries and give this authority to CR on a permanent basis. The Secretary
             implemented these recommendations by establishing the Office of Civil Rights and
             giving its director full responsibility to investigate and adjudicate discrimination
             complaints arising from conducted or assisted programs.

             CR itself fully implemented another three recommendations that have aided the integrity
             of the complaints resolution process. In our Phase I evaluation, and again in our Phase II
                        4
             evaluation, we had recommended that CR send a letter signed by the Secretary to all
             complainants whose cases had not been resolved, assuring them that action would be
             taken. As of this review, these letters have been sent to all complainants in the original

4
    Repeated recommendations, such as this one, count as two separate recommendations.

USDA/OIG/A 60801-4-Hq                                                                            Page v
              backlog of cases. We had also recommended in our Phase I evaluation that CR assume
              control of FSA’s program complaint system. CR did this temporarily between May and
              November 1997. The function was given back to FSA after FSA agreed to assign more
              personnel to its civil rights staff.

              In more recent action in response to our Phase V report, CR has taken steps to realign
              some of its program staff, and has agreed to give due consideration to hiring managers
              with strong knowledge, skills, and experience in civil rights, and ensure that they receive
              training in departmental programs. In addition, in our Phase VI report, we recommended
              that a determination be made as to whether a settlement term in a settlement agreement
              would be implemented. CR and FSA took actions to implement the term in the
              settlement agreement.

                                                         According to CR’s data base as of December 1,
Statistical Data on Complaints                           1999, the Department’s inventory of non-class
                                                         action complaints totals 897 (open and
              intends). In addition, the class action lawsuit brought against the Department comprises
              an additional 185 cases. These cases are identified separately because the court
              prohibited CR from processing the cases as long as they were under litigation.

              The tables below and on the following page identify the status of all cases in the
              inventory of Department complaints.

                                          Not in Class Action          Class Action5                  Total
                                                 6
                                        Intend         Open         Intend       Open        Intend           Open

                   Original Backlog                      35                        93                         128

                   New                                  216                        19                         235

                   Incomplete             563                         14                      577

                   Statue of
                   Limitations            83                          59                      142

                   Totals                 646           251           73          112         719             363

                 Table 3: Status of All Civil Rights Program Complaints as of December 1, 1999.




5 All of these class action cases should be either closed or reclassified as non-class action; however, CR has not properly updated its
database for these cases.
6 ‘Intend-to-file’ cases are cases where no determination has been made as to whether to accept the complaint or not and some may

be eligible under the waiver of the Statue of Limitation.


USDA/OIG/A 60801-4-Hq                                                                                                       Page vi
                                                                Not in Class Action         Class Action             Total

                   Pre-Investigation                                             187                       17                 204

                   Under Investigation                                             8                        2                  10

                   Adjudication                                                   16                        0                  16

                   At OGC                                                          2                        0                   2

                   Pending Closure                                                 3                        0                   3

                   Total                                                         216                       19                 235
                                                                                                   7
                 Table 4: Status of Open ‘New’ Civil Rights Program Complaints as of December 1, 1999.



                                     Reason Closed                       Non-Class Percent*            Class    Percent*     Total
                   Withdrawn                                                     217         25%           5         6%        222
                   Dismissed                                                     162         18%           1         1%        163
                   Referred to FNS                                                 13          1%          0         0%         13
                   Consent Decree                                                  10         1%          63        82%         73
                   Settlement                                                      98        11%           5         6%        103
                   Statute of Limitations                                          66          7%          1         1%         67
                   Final Agency Decision – No Discrimination                     255         29%           0         0%        255
                   Final Agency Decision – Discrimination                          12          1%          2         3%         14
                   Other                                                           50         6%           0         0%         50
                                        Subtotal                                 883                      77                   960
                   Cases Still Open                                                35                     93                   128
                                Total Backlogged Cases                           918                     170                 1,088
                   Data compiled from 12/01/1999 data base and has not been audited.
                   * Percent is based on the subtotal of closed backlog non-class and class cases.
                 Table 5: Backlogged Cases Closed By Category as of December 1, 1999.

                                                          We are recommending that for future
Key Recommendations                                       settlement awards, CR include in its operating
                                                          procedures a requirement that it document the
                computations behind its awards of compensatory damages, debt relief, and attorney’s
                fees, in accordance with the legal opinion set forth by the Department of Justice’s Office
                of Legal Counsel, and submit this documentation to OGC as part of its legal sufficiency
                review, in accordance with the Secretary’s August 30, 1999, memorandum. We are also
                recommending the CR resolve the remaining 35 cases in the original backlog with all
                deliberate speed.

                For the corrective actions that have not yet been completed on our previous
                recommendations, we recommend that these actions be implemented within 60 days of
                issuance of this report.

7   ‘New’ cases are those civil rights complaints received and perfected after November 1, 1997.


USDA/OIG/A 60801-4-Hq                                                                                                      Page vii
          Although not included in the narrative of this report, we are recommending that CR
          implement a management plan that addresses the inefficiencies we have noted in past
          reviews of the program complaints process. These same inefficiencies were evident
          during our current review of CR’s employment complaints process, and in the results of
          that review (Audit Report No. 60801-3-Hq), we discuss the need for such a management
          plan. The plan should address issues of effective leadership, changing organizational
          culture, customer focus, and process reengineering, the management areas we believe are
          essential to the successful operation of CR.

          Finally, we are recommending that CR improve the operations of its intake unit to ensure
          that all complaints are processed with due care. CR should review all open intend-to-file
          cases and determine (1) if Acknowledgment Letters have been sent in all cases, (2) if any
          cases should be moved forward in the resolution process, and (3) if any cases have been
          open beyond the established timeframe. Further, Acknowledgment Letters should state
          clearly what CR’s requirements are for a complaint of discrimination against USDA so
          that complainants are given a fair chance to fulfill those requirements.

                                                     On March 3, 2000, CR provided a written
Agency Response                                      response to our draft report. Based on that
                                                     response, we have made some revisions to the
report. We have also incorporated excerpts from CR’s response to our recommendations into the
body of the report, along with our positions and the action necessary to reach management decision
on those recommendations. In addition, CR’s response to our draft report is included in its entirety
as Exhibit D in this report.




USDA/OIG/A 60801-4-Hq                                                                     Page viii
TABLE OF CONTENTS


EXECUTIVE SUMMARY ............................................................................................. i


INTRODUCTION..................................................................................................................1

         BACKGROUND........................................................................................................1

         OBJECTIVES ...........................................................................................................3

         SCOPE......................................................................................................................3

         METHODOLOGY .....................................................................................................4


CONCLUSIONS AND RECOMMENDATIONS ................................................... 5
1.       CR’S ORIGINAL BACKLOG OF PROGRAM COMPLAINTS IS
         SUBSTANTIALLY CLEARED; CONCERNS REMAIN ABOUT UNRESOLVED
         BACKLOG CASES AND ABOUT SETTLEMENT AGREEMENTS USED
         TO CLEAR CASES ...............................................................................................................5

         Complainants Deserve Action on Remaining Backlogged Cases............................................6
           Recommendations...............................................................................................................7

         Files Show Little or No Support for CR’s Settlement Agreements .........................................8
             Recommendations.............................................................................................................12

2.       CR’S IMPLEMENTATION OF CORRECTIVE ACTIONS WAS INADEQUATE
         TO ENSURE COMPLAINTS WERE PROCESSED WITH DUE CARE ................ 14

         CR Did Not Implement Prior Recommendations...................................................................15
            Recommendations.............................................................................................................22

         CR Has Partially Implemented Some Prior Recommendations.............................................23
            Recommendation ..............................................................................................................27


USDA/OIG/A 60801-4-Hq                                                                                                          Page ix
TABLE OF CONTENTS

3.   CR NEEDS TO IMPROVE ITS INTAKE PROCESS OF CURRENT
     CASES ...................................................................................................................................28

     Not All New Complaints Are Processed With Due Care
     During CR’s Intake Phase.......................................................................................................32
        Recommendations.............................................................................................................37

     Not All Complainants Are Informed of CR Requirements
     For a Complaint.......................................................................................................................40
         Recommendations.............................................................................................................42




EXHIBITS
     A – SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS ..........44

     B – INTEND CASES NOT LOCATED....................................................................63

     C – SECRETARY'S REQUEST LETTER ..............................................................64

     D – AGENCY’S RESPONSE TO DRAFT REPORT ..............................................66




USDA/OIG/A 60801-4-Hq                                                                                                                Page x
Introduction
                                                       This review constitutes our seventh in a series
Background                                             of ongoing evaluations of CR. We began our
                                                       evaluations in December 1996, at the direction
            of the Secretary, who had raised concerns about the performance of the Department's
            civil rights program complaint system. Program complaints, or complaints of
            discrimination in the award or distribution of program benefits, constitute the primary
            type of complaint made against the Department by nonemployees. Program
            discrimination is expressly prohibited by Title VI of the Civil Rights Act of 1964, as well
                                                      8
            as other statutes and Federal regulations. The Civil Rights Act of 1964 provides that no
            person will be excluded from participation in any Federal program (such as a farm loan
            program) because of race, color, or national origin. At the time of the Secretary's
            concerns in 1996, the Department's Civil Rights Enforcement and Adjudication branch
            was responsible for resolving complaints from individuals who alleged that they had
            been discriminated against in their participation in USDA programs. CR succeeded the
            Enforcement and Adjudication branch in May 1997.

            Our first evaluation (Phase I) of the Department's civil rights complaints system found
            that that system was in disarray. Complaints of program discrimination were backlogged
            within the Department, and their status could not be determined. The Enforcement and
            Adjudication branch itself did not have a usable filing system or a reliable data base, and
            it did not have controls in place to monitor and track complaints. It also lacked current
            regulations and formal procedures for its operations.

            The deficiencies that we discovered during our Phase I review of the Enforcement and
            Adjudication branch remained uncorrected during our subsequent reviews of CR and
            were largely still in evidence during our Phase V evaluation, which we reported in
            September 1998. Of most pressing concern at that time was CR's original backlog of
                                                                                                9
            program complaints. The original backlog that had been identified as 1,088 cases in
            November 1997 still stood at 616 cases after 10 months (September 1998). Also of
            concern, however, was the continuing inaccuracy of CR's data base and the slovenliness
            of its file room. The Phase V review also noted that CR still lacked formal regulations
            and management stability.

            OIG recommendations during these six phases of reviews aimed at correcting
            deficiencies in 10 areas:


8
   Other statutes include the Americans with Disabilities Act of 1990, the Age Discrimination Act of 1975, and the
Civil Rights Restoration Act of 1987.
9
   CR defined its backlog as those program complaints that were in existence when CR was formed, complaints
resulting from the “listening sessions” held by the Civil Rights Action Team, and any other complaints received
before November 1, 1997. This group did not include cases that had been received on or after November 1, 1997.

USDA/OIG/A 60801-4-Hq                                                                                    Page 1
           Regulations needed to be published. CR had not published departmental regulations
           (DR-4330-1) to describe how discrimination complaints should be processed, and it
           had not updated the Department’s codified regulations (7 CFR part 15) to reflect
           current programs and laws.

           CR needed to reengineer its processing system. CR’s processing system was not
           designed by civil rights professionals and was neither effective nor efficient. It
           operated on a component basis, whereby each team of CR personnel processed
           complaints through one segment of the system. We recommended that CR
           operate on a case management basis, allowing each team to process a caseload
           from intake to final adjudication.

           CR needed to take control of its backlogs. As CR focused on clearing its original
           backlog of 1,088 complaints, it created another backlog of complaints filed after
           the November 1, 1997, date that identified the original backlog.

           CR needed to reconcile its casefiles with other agencies. Comparisons of CR’s
           list of open complaints with lists from the Farm Service Agency (FSA) and other
           agencies showed discrepancies.

            CR needed plans for compliance reviews. CR is responsible to oversee civil rights
           compliance at all levels of the Department.

           CR needed to find lost casefiles. Forty casefiles were identified as missing in
           September 1998.

           CR needed to establish aging reports. CR needed to track the age of its
           complaints to ensure that none were left unattended. It also needed to report its
           agency data to Department officials.

           CR needed to provide sufficient training to its staff. CR’s training for civil rights
           investigators and adjudicators was inadequate.

           CR needed to establish supervisory reviews. Reports of investigation and other
           documents did not reflect adequate supervisory reviews.

           CR needed to monitor all settlement and conciliation agreements. CR procedures
           and policies for settlement and conciliation agreement tracking and monitoring
           needed to be developed.

       The correlation between our recommendations and the six phases of our evaluation of
       civil rights activities at CR and FSA is denoted on the following table.




USDA/OIG/A 60801-4-Hq                                                                   Page 2
                                             Management                            Not            Partially
                       Recommendations        Decision*       Implemented      Implemented      Implemented
                         CR     FSA          CR      FSA       CR    FSA           CR            CR     FSA
           Phase I       14          -         10       -       5       -            5           4        -
           Phase II       3          13        3       13       3       9            -            -       4
           Phase III      -          -         -        -       -       -            -            -       -
           Phase IV       -          -         -        -       -       -            -            -       -
           Phase V       29          -         7        -       4       -           15           10       -
           Phase VI       8          -         2        -       1       -            2           5        -
           TOTALS        54          13        22      13      13       9           22           19       4

           * Management Decision is an evaluation by management of the findings, recommendations, and
           monetary results in an audit report and the issuance of a proposed decision concerning its response
           to such findings and recommendations, including action concluded to be necessary. (See Exhibit A)
         Table 6: Summary of Recommendations in OIG Civil Rights Reports

        The Secretary requested an assessment of CR’s corrective actions. Although FSA has
        responded comprehensively to the 13 recommendations we directed at it, we did not, in
        responding to the Secretary’s request, expand the scope of this evaluation to include an
        assessment of the effectiveness of FSA’s corrective actions.

        Currently, CR's Program Investigations Division and Program Adjudication Division are
        responsible for processing complaints of program discrimination within USDA. The
        Program Compliance Division is responsible for carrying out compliance reviews within
        the Department, and the Policy, Research and Analysis Division is responsible for
        developing Department regulations and guidance on implementing civil rights law and
        policies.

                                                  Our objectives were defined by the Secretary in
Objectives                                        his letter to us dated August 24, 1999. Noting
                                                  that OIG has issued six evaluation reports on
        the program complaints process since February 1997, the Secretary asked for our
        assessment of the corrective actions taken to date by CR on this process.


                                                 We performed our work at the Office of Civil
Scope                                            Rights in Washington, D.C. Based on the
                                                 Secretary’s letter dated August 24, 1999, we
        were requested to perform an assessment of corrective actions taken to date by CR on the
        six Evaluation Reports that we have issued since February 1997. The six reports that we
        have issued contained 67 recommendations. Fifty-four of these recommendations were
        addressed to CR and 13 were addressed to FSA. The field work was performed in
        September through December 1999. As of December 1, 1999, CR’s data base of cases


USDA/OIG/A 60801-4-Hq                                                                                 Page 3
       not involved in class action lawsuits reflected a total of 35 original backlogged cases,
       216 new cases, and 646 intend-to-file cases.
       We obtained CR’s September 7, 1999 data base and determined there were 939 open
       intend-to-file cases and 711 closed intend-to-file cases. We reviewed 87 open intend-to-
       file cases, and 101 closed intend-to-file cases to determine how the intake process was
       functioning and if all cases were being included in the data base. The cases we
       reviewed totaled 188. We had also requested an additional 83 cases to review that CR
       could not locate.

       The audit was conducted in accordance with Government Auditing Standards.


                                               To assess the corrective actions taken to date
Methodology                                    by CR, we:


               •   reviewed each recommendation we made in prior reports and the corrective
                   actions CR has taken,

               •   conducted interviews with responsible CR officials,

               •   interviewed officials from the Farm Service Agency and the Office of
                   Human Resource Management,

               •   analyzed CR’s data base used to track program complaints,

               •   reviewed various documents related to settlement agreements,

               •   reviewed CR policies, procedures, and draft manuals, and

               •   interviewed various OGC officials.

          To assess the impact of CR’s corrective actions on current operations, we:

               •   reviewed complainants’ casefiles processed under CR’s intake procedures.




USDA/OIG/A 60801-4-Hq                                                                  Page 4
Chapter 1: The Status of Original Backlogged Cases


 CR’s Original Backlog of Program Complaints Is
 Substantially Cleared; Concerns Remain About Unresolved
 Backlogged Cases and About Settlement Agreements Used
 to Clear Cases
            As of December 1, 1999, CR had closed all but 35 of its original backlog of 1,088 cases.
             Our concern remains that the complainants in these 35 cases have not received a
            resolution of their complaints. These complaints have been open up to 7 years, and CR’s
            tracking system shows that eight of the complaints are still in the preinvestigation stage.

            Also, in clearing the original backlog of 1,088 complaints, CR entered into 34
            settlement agreements without adequately documenting how it arrived at the amounts
            of compensatory damages and debt relief it awarded the complainants. According to a
            Department of Justice opinion, because such awards are taken from USDA
            appropriations, they should only be made if an assessment of liability showed that
            USDA would be found liable for a similar amount by a court of law. We found no
            evidence that such an assessment had been made in any of the 34 cases.

            Much of the reduction of the backlog has occurred as a result of the implementation of a
            task force, which we recommended in a previous report.10 The Early Case Resolution
            Task Force was initiated on October 1, 1998, by the Secretary and was assigned a total of
            232 open cases to review. (Eighteen of these cases were actually part of the Pigford-
            Brewington class-action lawsuit, and therefore were exempt from Department action.)11
            The task force consisted of six specific teams that were assigned different groups of
            cases to review. Four of the teams reviewed the 214 open cases, and 2 teams reviewed
            an additional 462 cases that had been administratively closed. Reviews of the
            administratively closed cases were made to determine if they had been properly closed.
            The task force, which included representatives from the Office of the General Counsel,
            reported to the CR director. The CR director in turn appointed a CR Project
            Management Team to review the task force’s recommendations. The CR director, in
            conjunction with the management team, made the final decision in each case.

            The 34 settlement agreements were entered into by CR on behalf of other Department
            agencies (largely the Farm Service Agency and Rural Development). The task force
            reviewing these cases had found in 8 cases either no finding of an inference of
10
   Recommendation Number 1a from our Phase V evaluation, Evaluation of the Office of Civil Rights’ Efforts to
Reduce the Backlog of Program Complaints, (Audit Report No. 60801-1-Hq) dated September 30, 1998.
11
    CR’s data base showed that the original 1,088 backlogged cases included 170 cases that were involved in the
Pigford-Brewington class-action lawsuit. Since CR can take no action on these cases, they are considered closed. If the
claimants decide to remove themselves from the class action lawsuit, their cases will be reopened and processed by CR.


USDA/OIG/A 60801-4-Hq                                                                                         Page 5
       discrimination or a low to very low potential of discrimination, and recommended
       small amounts ($1,000 to $2,000) or no compensatory damages and limited relief from
       program debt; nevertheless, the CR director and/or her project management team
       increased both the amount of damages and the amount of debt relief. In at least one
       case, settlement damages were 100 times the amount recommended by the task force.
       We found little or no support for the increased amounts and believe greater emphasis
       should have been placed on documenting a proper assessment of liability and
       damages.

                                               The 35 complaints remaining from the original
Conclusion No. 1
                                               backlog should be resolved with all deliberate
Complainants Deserve Action on
                                               speed. The complainants in these 35 cases
Remaining Backlogged Cases
                                               have waited years to receive an answer to their
                                               complaints. CR’s data base of December 1,
       1999, shows that only 13 of these complaints are pending administrative closure. The
       other complaints are shown as either involved in some form of review by the Office of
       the General Counsel (2), in some stage of processing (12), or still pending an
       investigation (8). Four of the 35 complaints were considered backlogged as early as our
       Phase I report in February 1997, when we reported that FSA had 241 open cases. We
       concluded that CR should expedite the processing of these complaints.

       The following chart depicts the age groups to which the 35 cases belong, according to
       CR’s December 1, 1999, data base. The average age of the cases is 1,384 days, or about
       3.8 years.

                                Ag e o f 35 Op en B acklo g C o m p lain ts


            Over 7 Y ears          1


                5-7 Years                               6


                3-5 Years                                                                 15


                2-3 Years                                                           13


                            0          2    4       6        8       10        12    14    16
                                                   Nu m b e r o f Ca se s



       Table 7: Age of the 35 Complaints Remaining in CR’s Original Backlog.




USDA/OIG/A 60801-4-Hq                                                                      Page 6
       These cases should be resolved with all deliberate speed. Because it is unlikely that the
       eight cases still in the pre-investigations phase could be investigated at this late date, due
       to unavailability of personnel and records, we concluded that CR should seek authority
       to process these cases under an abbreviated system, such as was used by the Early Case
       Resolution Task Force in reducing the original backlog. The remaining 27 cases have
       already been investigated and should be moved through adjudication as quickly as
       possible.

Recommendation 1


       Direct CR to resolve the 35 cases remaining from the original backlog with all deliberate
       speed.

       CR Response:

       As of February 28, 2000, the backlog had been reduced to 18 case files. As of March 3,
       2000, the backlog has been reduced to 2 cases. CR will close the remaining two cases as
       expeditiously as possible.

       OIG Position:

       We agree with the actions taken. However, before we can agree with the management
       decision, we need a timeframe for expected closure of the remaining two cases. In
       addition, the CR response does not provide support for how the 33 cases were closed.
       CR needs to provide this support.

Recommendation 2

       Grant CR the authority to use an abbreviated system and forego investigations to
       resolve the 8 cases shown as not yet having been investigated.

       CR Response:

       The creation of an abbreviated process for the investigation of the backlog cases is not
       necessary. Of the remaining open backlog complaints, only one requires an on-site
       investigation.

       OIG Position:

       We agree with the actions taken. However, before we can agree with the management
       decision we need to know which case still needs to be investigated and the expected date
       as to when the final case will be investigated.

USDA/OIG/A 60801-4-Hq                                                                        Page 7
                                                      For the 34 original backlogged cases that had
Conclusion No. 2
                                                      reached the settlement stage and have been
Files Show Little or No Support
                                                      settled, we found little or no support for the
For CR’s Settlement Agreements
                                                      amounts awarded to complainants for
                                                      compensatory damages or relief of debts.
            Although the task force reviewing the cases had found that in 8 of the cases either no
            finding of an inference of discrimination or a low to very low potential that
            discrimination had actually occurred, the CR director determined, based on
            recommendations by a CR project management team, that the claimants were entitled to
            much greater relief and much larger damage awards than the task force found reasonable.
             OGC was not given an opportunity to perform a legal sufficiency review of the
            settlements prior to the offers, and we were not given adequate documentation to explain
            how the CR director or her project management team determined the amounts. Since the
            award of damages goes to the legality of using agency funds, it is crucial that OGC
            review all determinations and awards. Without documentation, it cannot be known
            whether CR completed an assessment of court liability in accordance with a Department
            of Justice opinion and whether it has not violated appropriations laws. We concluded
            that the 34 claimants who accepted settlement offers received $2,317,140 in damages
            and $3,664,380 in debt relief whose equitability could not be substantiated by
            documentation.

            The task force had recommended that 54 settlement offers be made to complainants, but
                                                              12
            only 38 of the complainants accepted these offers. However, based on reviews by FSA
            and its program legal advisor, 4 of the 38 settlement agreements were not implemented
            because they did not involve credit transactions under the Equal Credit Opportunity Act
            (ECOA). The other 34 settlement agreements were implemented.

            We have several concerns regarding the amounts paid out and debts written off as part of
            these settlements, as well as the process used to arrive at those amounts. In all 34 cases
            we found little or no support for the amounts awarded to the complainants for
            compensatory damages or relief of debt. In fact, in 8 cases the Early Case Resolution
            Task Force recommended that the complainants should not be awarded compensatory
            damages or should be awarded only small amounts, because they found either no finding
            of an inference of discrimination or low to very low potential of discrimination.
            However, the CR director and a CR project management team established to review the
            task force’s recommendations, disagreed with the task force results and, using their
            judgment, awarded significant amounts of compensatory damages and relieved several
            complainants of all their debts to USDA.



12
   These settlements do not involve any of the cases included in the Pigford-Brewington class-action lawsuit nor any
cases negotiated by the Department of Justice.

USDA/OIG/A 60801-4-Hq                                                                                      Page 8
              Included in CR’s determination in at least 19 of 54 settlement offer cases was the
              understanding that 30 percent of the debt writeoff constituted a damages award. This 30
              percent was considered an “income-tax rate.” For example, the amount could be applied
              to the taxes the complainant would owe as a result of debt writeoff. However, we found
              no documentation showing how this 30 percent rate was arrived at.
                                          13
              According to guidelines issued by the Civil Rights Division of OGC, the basis for
              awarding compensatory damages and program relief (and the amount of any relief or
              payment awarded) is an assessment of court liability—that is, a determination of the
              extent to which the complainant’s case would stand up in a court of law. Three
              characteristics of a case inform this determination: whether the complaint involves a
              credit transaction, whether there has been a finding of discrimination upon which the
              complainant may seek redress, and whether the court would regard the Government’s
              liability in the case as sizeable or negligible.

              Credit Transaction. Adverse action involving a credit transaction is recognized by the
              ECOA and by several official interpretations of the ECOA as the only type of case
              eligible for compensatory damages. The ECOA states that “any creditor who fails to
              comply with any requirement imposed [by the Act] shall be liable to the aggrieved
              applicant for any actual damages sustained by such applicant acting either in an
              individual capacity or as a member of a class.” Further, the OGC guidelines referred to
              above state that as a threshold issue, compensatory damages could only be paid in
              cases involving a credit transaction, since the sole authority for the Department to pay
              such damages is under ECOA. The OGC guidelines also reminded CR it was crucial
              that OGC review all settlement agreements for legal sufficiency.

              Finding of Discrimination. Clarification of the authority for the Department to pay
              compensatory damages in ECOA cases stems from an April 18, 1994, Office of Legal
              Counsel (OLC), Department of Justice, opinion on the authority of USDA to award
              monetary relief in conducted program discrimination cases. In this opinion, OLC set
              forth the general rule on when agencies may lawfully use their funds to make monetary
              awards. Specifically, OLC stated that an agency may make such payments “if a court
              could award such relief in an action by the aggrieved person.” Later in the opinion, OLC
              restated the rule: “Appropriations law provides that agencies have the authority to
              provide for monetary relief in a voluntary settlement of a discrimination claim only if the
              agency would be subject to such relief in a court action regarding such discrimination
              brought by the aggrieved person.” [Emphasis added.] OGC reiterated this opinion in its
              guidelines to CR.

              OLC’s conclusion is that an agency may use its funds to settle an ECOA claim when
              ECOA has been violated and court liability is possible. Since the Department is using
              this settlement authority, it must be guided by the accepted government-wide practice in

13
     These are set forth in a letter from OGC to CR, dated September 22, 1998.

USDA/OIG/A 60801-4-Hq                                                                            Page 9
              determining when such awards are proper.

              The language of the OLC opinion makes clear that some assessment of court liability
              must be performed before an administrative award of compensatory damages can be
                    14
              made. The opinion also makes clear that this conclusion is a matter of appropriations
              law that goes to the legality of an agency’s use of its appropriated funds. Thus, the
              Department must take seriously its obligation to make some assessment of potential
              court liability before making an ECOA award, or offering programmatic relief such as
              debt writeoff.

              According to OGC, payment without a finding of discrimination could be made under an
              “abbreviated system” (i.e., no formal, published determination of discrimination), but
              even though the Department task force used such a system, it is important to note that the
              task force recommended little or no payment in many of the cases.

              Amount of Damages. The conclusion that some assessment of potential court liability
              under ECOA must be made leaves open the question of what minimum assessment to
              support an award would be sufficient. Thus, an assessment of the risk of liability and of
              possible damages is conducted. According to a May 5, 1999, Congressional Research
              Service memo, a number of cases have attempted to define what constitutes “actual
              damages” under the ECOA. Some courts have found that actual damages may include
              out-of-pocket monetary losses, injury to credit reputation, mental anguish, humiliation or
              embarrassment. In other words, “actual damages” may include restitution for a loss that
              is not measurable in dollar terms. However, in cases in which there is not a sizeable risk
              of liability, discounting of damages may be applied. In the case of litigation, DOJ
              sometimes settles cases for “nuisance value,” even if there is a minimal risk of court
              liability.

              The CR project management team disagreed with the Early Resolution Task Force on at
              least 46 of 54 decisions regarding potential compensatory damage amounts for
              settlement agreement cases. (In some of the remaining 8 cases, we could not determine
              the amount that the task force recommended, if any.) In 42 of 54 cases, the task force
              recommended that either nothing be paid in compensatory damages or only a small
              amount ($500 to $10,000) be awarded. In addition, the task force offered no
              recommendation that claimants’ debts be written off in 14 specific cases. However, the
              CR project management team and the CR director disagreed with the task force
              recommendations, and recommended the write-off of the debt of all 14 complainants,
              which totaled over $1.7 million.

              We were not given adequate documentation to support the CR project management team
              or the CR director’s decisions to increase the compensatory damage awards or provide
              for the claimants’ debt write-offs. Although we recognize that final authority to make

14
     See the September 22, 1998, letter from OGC to CR, referred to on the previous page.

USDA/OIG/A 60801-4-Hq                                                                          Page 10
       the awards rested with CR, there is no evidence that CR undertook an assessment of
       court liability, in accordance with the OLC opinion.

       For example, in the case of one complainant who alleged that Rural Development
       wrongfully foreclosed on her home loan because of her disability, the task force
       recommended only that USDA provide the complainant with a safe and sanitary housing
       unit as a matter of program relief. To this program relief, however, CR added a
       complete writeoff of the complainant’s mortgage debt as well as a monetary award of
       $90,000--what CR regarded as the fair market value of the complainant’s home, with
       improvements for handicap accessibility. There was no documentation to show how CR
       arrived at $90,000 as the 1998 fair market value for a home the complainant purchased
       for $9,000 in 1972 and for the added cost of making it handicap accessible, and no
       documentation to show why CR believed Rural Development would be liable for these
       amounts in a court of law.

       The unlikelihood of court liability also raises questions about CR’s decisions to increase
       the amounts of damages awarded. In 12 of the 54 cases where settlement offers were
       made the task force stated that there was either no finding of an inference of
       discrimination or low to very low potential of discrimination, and therefore
       recommended either no settlement amount or a small settlement amount. However, the
       CR project management team and/or the CR director disagreed with the task force
       conclusions and awarded larger compensatory damage settlements.

          •   In one case, the task force stated that there was a low potential of discrimination,
              and the allegations were not very strong. They recommended a monetary award
              of $1,000 and no debt forgiveness. However, the CR director and project
              management team awarded the complainant $100,000 and provided debt relief of
              $338,021. We found no documentation to support the decision to award the
              larger amount or to forgive the debt.

          •   In another case, the task force stated that the allegations had a potential inference
              of discrimination with regard to sex, and recommended an award of $2,000 and
              no debt forgiveness. However, the CR director and project management team
              awarded the complainant $110,000 in compensatory damages and provided debt
              relief of $188,639. No documentation supported this award.

          •   And in a third case, CR’s records showed that the task force recommended the
              complainant’s debt be written off because of a potential inference of
              discrimination on the basis of marital status, but nothing was recommended for
              compensatory damages. CR recommended that the claimant’s $692,258 debt be
              written off and awarded an additional $150,000 in damages. The damage award
              was not supported.

       After the 34 settlements had been awarded, the Secretary issued a memorandum in

USDA/OIG/A 60801-4-Hq                                                                     Page 11
              which he recognized the need to abide by OGC guidelines. In his August 30, 1999,
              memorandum to the CR Director, the Secretary stated that each proposed settlement
              must be reviewed by OGC to ensure that all conclusions are supported by evidence, that
              there is legal support for any determination of discrimination, and that there is legal
              authority for the settlement. The Secretary emphasized that OGC’s conclusions must be
              documented in CR’s files. The civil rights staff at OGC said that they had not been
              given an opportunity to perform a legal sufficiency review of any of the 34 settlements
              that resulted from CR’s attempt to clear its backlog. This occurred because CR did not
              adhere to OGC’s advice that it review all determinations and awards. In addition, we
              found that CR does not have standard procedures which require CR to document the
              computations behind its awards of compensatory damages, programmatic relief, and
              attorney’s fees.

              Also unresolved is the question of accountability. None of the 34 settlement cases were
              referred to the Office of Human Resources Management for consideration of disciplinary
              action against a USDA employee. Although not all cases may have warranted
              disciplinary action, the Office of Human Resources Management and not CR is
              responsible for that determination. Further, OGC has noted that a finding of
              discrimination is not prerequisite to disciplinary action. In its April 3, 1998,
              memorandum to CR, OGC stated that even without a finding of discrimination, “CR
              may direct a personnel misconduct investigation of a USDA employee.”

              Because the award of settlement amounts is a matter of appropriations law, as OGC has
                           15
              pointed out, and because excessive settlements could be a violation of that law, we
              concluded that CR needs to document carefully its assessment of the damages and relief
              that would meet the test of court liability. Although such documentation would no
              longer affect the settlement cases that are already closed, we believe it is necessary, for
              future settlement cases, for CR to document the computations behind the awards of
              compensatory damages, program relief, and attorney’s fees in accordance with the legal
              opinion set forth by the Department of Justice’s Office of Legal Counsel. We also
              conclude that CR should refer all settlement cases to the Office of Human Resources
              Management for consideration of disciplinary action.

Recommendation 3

              For future settlement cases, direct CR to include in its standard operating procedures a
              requirement to document the computations behind its awards of compensatory damages,
              programmatic relief, and attorney’s fees in accordance with the legal opinion set forth by
              the Department of Justice’s Office of Legal Counsel. In addition, CR should submit this
              documentation to OGC as part of its legal sufficiency review, in accordance with the
              Secretary’s August 30, 1999, memorandum.

15
     See its September 22, 1998, letter to CR, quoted earlier in this report.

USDA/OIG/A 60801-4-Hq                                                                           Page 12
       CR Response:

       CR has in its procedures and operations the requirement of documentation of
       compensatory damages, programmatic relief, and attorney’s fees. CR will develop and
       issue a written directive within 45 days to codify these procedures. Compensatory
       damages documentation cannot be submitted to OGC as part of its legal sufficiency
       review. The legal sufficiency review precedes a FAD, and compensatory damages
       claims are developed only if there is a final agency decision.

       OIG Position:

       We agree with the actions planned for a written directive to codify the indicated
       procedures. However, before we can reach management decision, CR needs to
       develop a standard operating procedure whereby OGC can review the settlement
       agreements. Per the Secretary’s Memorandum dated August 30, 1999, “prior to the
       settlement or adjudication of a program or equal employment claim, the proposed
       settlement must be reviewed by the Office of the General Counsel to determine that
       the facts cited are supported by the evidence and that there is legal authority for the
       proposed settlement or adjudication.”

Recommendation 4

       Refer all settlement cases to the Office of Human Resources Management for
       consideration of disciplinary action.

       CR Response:

       CR has drafted a disciplinary policy that requires cases to be referred to the Office of
       Human Resources Management. This policy will be circulated through the appropriate
       Departmental offices within 60 days.

       OIG Position:

       We agree with the actions taken. However before we can agree with the management
       decision, CR needs to provide us with assurance that for all the settlement agreements
       paid as a result of the Early Case Resolution Task Force, the cases will be forwarded
       to the Office of Human Resources Management for a determination as to whether any
       disciplinary actions are warranted.




USDA/OIG/A 60801-4-Hq                                                                 Page 13
Chapter 2: Previous Deficiencies and Incomplete Corrective Actions

CR’s Implementation of Corrective Actions Was Inadqeuate
To Ensure Complaints Were Processed With Due Care

           Since February 1997, we have issued six reports on civil rights issues relating to the
           program complaints process administered by CR. Those six reports contained 67
           recommendations, 54 of which were directed at CR (the remaining 13 were directed at
           the Farm Service Agency).         During the current review, we found that 41
           recommendations (all directed to CR) have not been adequately addressed by CR, based
           on the actions taken as of December 1, 1999. (See exhibit A.) As a result, we still have
           concerns that CR may not be providing due care when processing complaints alleging
           discrimination in USDA programs.

           In this chapter, we are detailing the issues involved in many of the major
           recommendations that have not been implemented or that have been partially
           implemented.

           Of primary concern is CR’s adherence to an inefficient processing system. We reported
           in our “Evaluation of the Office of Civil Rights’ Efforts to Reduce the Backlog of
           Program Complaints” (Phase V), dated September 30, 1998, that CR officials agreed that
           the system for processing new complaints was neither effective nor efficient. The
           officials emphasized that the system was not designed by civil rights professionals who
           would know the intricacies of complaints processing. However, despite this agreement
           and despite our recommendations for a change in how program complaints were
           processed, no significant changes in how complaints are processed have been made.

           To determine if CR’s draft procedures, as written, resulted in an improved complaint
           processing system, we reviewed some intend-to-file cases and identified five areas of
           concern with the current process. (See Chapter 3: New Issues of Concern, for complete
           details of the problems we continue to encounter due to CR’s complaint processing
           system.) Based on the number of problems we encountered with the system as it is
                                         16
           outlined in the draft manuals, we concluded this system does not lend itself to adequate
           and timely processing of program complaints.

           We also found that CR has not kept settlement agreements open until all terms of the
           agreements have been met, and it has not conducted sufficient training to ensure
           complaints are processed properly. We recommended in our Phase VI report that CR
           track settlements to ensure their terms had been met, but CR continues to close these
           cases once a settlement has been reached. We recommended in our Phase V report that

16
   Draft Department Manual 4330-2 contains guidance on conducted programs, and Draft Department Manual 4330-
3 contains guidance on assisted programs.

USDA/OIG/A 60801-4-Hq                                                                             Page 14
            CR provide training to staff personnel as soon as possible. In over a year’s time, only 2½
            days of training have been provided to the investigators. CR’s investigators and
            adjudicators may not be adequately prepared to handle complaints without more
            formalized training.

            In those instances in which CR has partially implemented our recommendations, we did
            not always find significant improvement. Most notably, CR’s data base remains
            unreliable. We had recommended in our Phase V report that CR cleanse its data base
            and casefiles, but CR is depending on a new data base to ensure the integrity of new data
            while the old data remains corrupted. CR had also done little to improve employee
            morale. In response to our recommendation that CR provide a mechanism for employee
            input into office operations, CR solicited ideas from its management team only. From
            our current observations, we concluded that employee morale remains low.

            Of particular concern to us was the status of five specific recommendations. For these
            five recommendations, CR had reported that corrective actions had been completed, yet
            we found that little effective action was taken and that the deficiencies remained.
            Among these deficiencies was CR’s inability to locate all complainants’ casefiles.
            (During Phase V, CR was unable to locate 40 casefiles.) These missing files have led to
            serious delays in complaint processing and may result in the permanent loss of important
            information. We are recommending that the Secretary require CR management to
            immediately develop a corrective action plan to address these five issues.


                                                     CR did not implement 22 of our prior
Conclusion No. 3
                                                     recommendations. Five of these were
CR Did Not Implement Prior
                                                     recommendations that CR stated it had
Recommendations
                                                     completed but which our review indicated were
                                                     incomplete.    These five recommendations
            included actions to obtain legal sufficiency reviews for cases that had not previously
            been submitted for such a review, and to locate casefiles that CR was unable to locate
            during our prior evaluation. We concluded that the cases associated with these five
            recommendations were not being processed with due care. These five recommendations
            are highlighted below. The other 17 recommendations not implemented are also
            detailed.
                                                                                    17
            We recommended that CR obtain legal sufficiency reviews from OGC for seven
            cases closed with no findings of discrimination adjudicated based on the agency
            preliminary inquiry. CR responded by stating OGC reviewed these seven cases and
            concurred with CR that there were no findings of discrimination. When we contacted
            OGC to obtain evidence of its review, OGC stated it had no record of reviewing these

17
  Recommendation 1c from our Phase V evaluation, Evaluation of the Office of Civil Rights’ Efforts To Reduce the
Backlog of Program Complaints, (Report No. 60801-1-Hq), dated September 30, 1998.

USDA/OIG/A 60801-4-Hq                                                                                 Page 15
             cases. We reviewed the casefiles for these seven cases and found no evidence of an
             OGC review.
                                                                          18
             We recommended that CR locate 40 missing files. CR responded by stating the
             files were located and had been in the possession of staff members or had been
             misfiled. On November 3, 1999, we requested these files to ensure they had been
             located. On November 30, 1999, CR made an effort to locate the files. As of
             December 8, 1999, they were unable to locate 14 of them.

             We continue to have concerns about CR’s ability to account for all of its casefiles.
             During our current review of program complaints intake activities, CR employees
             were unable to locate all the files we requested. We requested a total of 384 cases to
             review, including both open and closed intend-to-file cases. As of December 8, 1999,
             CR was able to locate only 301 of the 384 cases. CR could not locate the remaining
             83 cases. (See exhibit B.)

             We recommended the task force assist the CR Director in reviewing the new
             backlog and in recommending process changes, to include a system that emphasizes
             involvement of the complainant and a case management team approach to the
                                                                                   19
             resolution of the complaint from the initial phases of the process. CR responded
             that its draft manuals addressed our concerns over the processing of complaints.
             However, the draft manuals described a process that was no different from the one we
             took exception to. We reported in our Phase V review that CR needed to transition
             from component processing of its workload to a case management operational concept
             and structure. This would involve assigning each case to a CR case management team,
             which would process the case from initial intake to final adjudication. In spite of CR’s
             agreement that the component processing system is inadequate, it continues to operate
             under this system. Based on the number of problems we found in the draft manuals
             and on the deficiencies we observed during our current review of intake processes (see
             Chapter 3), we concluded that the system was inadequate.

             Part of our concern in this area was CR’s processing of complaints during intake, and we
             recommended that CR get back control of cases that exceeded the 24-day fact-finding
                   20
             limit.    We had identified 38 cases that were under the control of different USDA
             agencies, not CR. CR responded that it had gotten control of these 38 cases. We found
             that 37 of these cases had been moved beyond the fact-finding stage, but that the 38th
             case was still at the agency, where the data base indicated it was still in the fact-finding
             stage.



18
     Recommendation 12b from our Phase V evaluation, dated September 30, 1998.
19
     Recommendation 2a from our Phase V evaluation, dated September 30, 1998.
20
     This was part of Recommendation 2a, listed in footnote 19.

USDA/OIG/A 60801-4-Hq                                                                           Page 16
                                                                                  21
             We recommended that CR keep open the cases it refers to FNS. CR responded
             by stating that cases referred to FNS under its Memorandum of Understanding with
             CR would be kept open until satisfactorily resolved. CR said it would also monitor all
             referrals to FNS in monthly reconciliation meetings and through a quarterly review of
             complaint processing.

             According to CR’s September 7, 1999, data base, CR is still closing cases referred to
             FNS with a closed code of FNSref. A CR manager said that the new data base has the
             capability to track the FNS referrals without closing them. However, he said that to
             his knowledge it is still CR’s policy to close FNS cases once they are referred to the
             agency. The chief of the Program Investigation Division supported this view. She
             said that the only reason for keeping a case open would be an assumption that FNS’
             decision would be appealed.

             We still have concerns about this practice of closing FNS referrals. CR has overall
             authority regarding civil rights in USDA and has a responsibility to oversee how FNS
             is processing the complaints. By closing a case, CR may forget the case exists and
             will only be concerned if FNS’ decision is appealed. In fiscal year 1999, CR closed 16
             of these referral cases, 7 of which it closed after it had responded to our
             recommendation, stating it would keep these cases open.

             We also have concerns about how these cases are reported. We found that CR was
             including these FNS referrals in its reports to the Secretary on how efficiently it was
             resolving cases. By including the referrals in its reports, CR was taking credit for
             resolving cases in 1 day when in fact it was not resolving the cases at all.

             We recommended that CR establish a second-party review over its data entry
                     22
             process to ensure the data is reviewed at the time it is entered and that all relevant
             case data is reviewed at the time the case is closed. CR responded by stating the
             processes already in place would ensure second-party review procedures for
             information entered into the data systems. Also, all manuals and standard internal
             operating procedures would be implemented by July 30, 1999.

             We reviewed the final Departmental Regulation as well as the draft Departmental
             Manual. We did not see any description of a second-party review process as described
             in CR’s response. Neither CR’s manuals nor its internal procedures address this type
             of second-party review.

             The chief of CR’s Program Investigation Division said that she performs a second-
             party review of some of the data, but that there is nothing in the standard operating
             procedures that requires her to do so. The chief of the Tracking Applications and

21
     Recommendation 6d from our Phase V evaluation, dated September 30, 1998.
22
     Recommendation 11b from our Phase V evaluation, dated September 30, 1998.

USDA/OIG/A 60801-4-Hq                                                                      Page 17
             Analysis staff said that he understood an intake specialist would perform a second-
             party review of data for some of the case files, but he said he has not seen this internal
             procedure in a manual or regulation.

             We recommended that CR cleanse its data base and casefiles with a document-by-
                                           23
             document sweep of the files. We also recommended that CR establish procedures
                                                                                          24
             and provide training to personnel on how to use the data base and input data. One of
             the most critical deficiencies we noted in our previous evaluations was the lack of
             integrity in CR’s caseload tracking system. The data used to inform the Secretary and
             Congress of the status of program complaints was inaccurate. As of this review, CR
             has not cleansed the data that still exists on its old data base, has not implemented
             procedures on data base usage, and has not effectively trained users on the use of the
             data base or data input. CR employees still do not update the data base properly with
             milestone dates in case processing. For instance, on September 7, 1999, CR’s program
             complaints data base showed that 13 original backlogged complaints were still awaiting
             investigation. However, our review of the casefiles for 11 of these cases showed that 3
             had already been settled; the data base had not been updated to reflect this fact.
             Inaccurate data and corrupted casefiles may impair CR’s ability to process these
             complaints with due care.

             CR also uses its data base to track the location of the physical casefiles. Using a field in
             the data base, CR employees can tell whether files are in the file room or in the
             possession of another employee. We found that CR has also not improved its efforts to
             properly update this location field. CR’s data base as of September 7, 1999, shows 1,215
             cases for which the file location field is blank. CR was also unable to locate 83 of the
             384 cases we requested during our review. Furthermore, its data base showed that 21
             casefiles were still in the possession of the former director of CR, who retired from
             USDA in early 1998. The data base should be updated to reflect the actual location of
             these files.

             In October 1999, CR implemented its Civil Rights Complaint Tracking System
             (CRCTS). CRCTS has security features that allow read-and-write access to the data
             base based on an employee’s job function. It also acts as a workflow system, identifying
             employees who are accountable for cases and allowing management to track the progress
             of the case from start to finish. And it acts as a repository for documents. Documents
             created by employees, such as correspondence, can be stored in the system along with
             other documents that can be scanned into the system. These features are a considerable
             improvement over the old system and will, over the long run, improve CR’s ability to
             track and manage its caseload.



23
     Recommendations 11d and 12a from our Phase V evaluation, dated September 30, 1998.
24
     Recommendation 11a from our Phase V evaluation, dated September 30, 1998.

USDA/OIG/A 60801-4-Hq                                                                           Page 18
           Other factors contributing to data base inaccuracies are inadequate training, lack of
           procedures for data input, and failure to hold employees accountable for data accuracy.
           CR has also not established formal procedures defining proper use of the data base and
           what constitutes timely data input. Without formal procedures, it is difficult, if not
           impossible, to hold employees accountable for their actions or inaction.
                                                                                                             25
           We recommended that CR develop a data base for outstanding program complaints.
           The new CRCTS system contains the necessary information to allow workers to
           determine what actions are needed to resolve the complaint (only new cases as of
           October 1, 1999 will be tracked by CRCTS). However, as stated earlier in this
           chapter, the old program complaints data base remains unreliable.

           We recommended that CR send agencies a report each week that shows the age of
                            26
           open complaints. CR stated it has begun issuing complaint reports to all agencies on
           a monthly basis. CR did not show that this report included an aging report.
                                                                                    27
           During Phase I, we recommended that CR standardize its files. During a subsequent
           phase, we were provided with draft file room procedures that outlined the steps CR
           would take when files were assembled. Based on these procedures and a review of
           some files, we felt this recommendation was substantially complete. However, during
           our Phase V review, we noted the files were still in disarray. Based on this review, we
           could not reach management decision for this recommendation.

           On November 15, 1999, CR began an inventory project designed to account for all
           program complaint case files, standardize these files, and reconcile selected
           information with the information in the data base. The tentative completion date of
           this project was December 11, 1999.

           We recommended that CR perform compliance reviews of each USDA agency’s civil
                          28
           rights staffing to determine if the agencies had committed adequately trained staff
           and had adequate procedures to process complaints. Although this recommendation
           was originally made in February 27, 1997, CR has yet to implement it.

           While some effort to implement this recommendation is apparent (hiring of permanent
           compliance staff and drafting procedures), most of the recommendation has not been
           acted upon. The first recommendation in this area has been outstanding for over 2½

25
   Recommendations 1e and 2 from our Phase I evaluation, dated February 27, 1997. Note: Recommendation 2
appears as 3 in Exhibit A.
26
   Recommendation 3 from our Phase I evaluation, dated February 27, 1997. Note: This recommendation appears
as 4 in Exhibit A.
27
   Recommendation 4 from our Phase I evaluation, dated February 27, 1997. Note: This recommendation appears
as 5 in Exhibit A.
28
   Recommendations 1h from our Phase I evaluation, Evaluation Report for the Secretary on Civil Rights, (Report
No. 50801-2-Hq(1)) dated February 27, 1997.

USDA/OIG/A 60801-4-Hq                                                                                Page 19
             years and CR has yet to permanently fill the role of compliance manager and issue any
             compliance reports as of December 1, 1999. We credit CR with its use of a task force
             to ensure quality compliance reports; however, we believe these steps should have
             been taken earlier.

             We recommended that CR require agencies to limit their 24-day reviews to fact-
             finding and stop obtaining signed statements from complainants and other non-USDA
                        29
             employees. CR stated that the Assistant Secretary for Administration issued a memo
             stating what was required of the agencies, but CR has not produced a copy of the
             memo.

             We recommended that CR amend its memorandum of understanding with HUD to
                                                                                             30
             require HUD to forward all future complaints against USDA employees to CR. CR
             responded that the memorandum was being reviewed to determine if it should be
             continued. CR stated that at the very least, there would be substantial modification to
             ensure USDA maintained greater control over referrals of cases involving USDA
             employees.

             CR has not specifically addressed this recommendation. In CR’s first response, it said
             it would review the memorandum at the end of its first operational year. We
             determined that the memorandum had been in effect over a year at the time of CR’s
             response and yet the review had not been completed.

             The memorandum states, “This memorandum does not cover complaints alleging that
             USDA has violated the Fair Housing Act. The disposition of such complaints will be
             addressed at a future date in a separate Memorandum of Understanding.” To date, a
             separate memorandum has not been executed.

             We recommended that CR determine if memorandums of understanding with agencies
                                              31
             other than HUD are needed.            CR responded that enhanced monitoring by its
             compliance unit will obviate the need for other memorandums of understanding;
             however, this unit has not yet been fully staffed.

             We recommended that CR determine the status of 24 possible complaints against
                                                                      32
             USDA employees that are currently in HUD’s intake process and to analyze these for
             resolution. CR responded by stating the cases from HUD had been reviewed by the
             task force along with all the other cases.

             We were informed by Rural Development, which administers the memorandum of
             understanding with HUD, that CR had not reviewed these cases and the cases never
29
     Recommendation 2b from our Phase V evaluation, dated September 30, 1998.
30
     Recommendation 6a from our Phase V evaluation, dated September 30, 1998.
31
     Recommendation 6c from our Phase V evaluation, dated September 30, 1998.
32
     Recommendation 6b from our Phase V evaluation, dated September 30, 1998.

USDA/OIG/A 60801-4-Hq                                                                      Page 20
           left HUD’s control. CR did not provide us with any documentation showing the
           results of its review. CR said the task force reviewed the cases when, in fact, this was
           not the case.

           We recommended that CR encourage conciliation with complainants in discrimination
                 33
           cases.    We found that a policy to this effect was drafted but later rescinded.
           Currently no policy is documented.

           We recommended that CR assemble a team of OGC civil rights attorneys and
           cognizant agency program officials to meet prior to each settlement agreement
                       34
           negotiation. CR responded that it would continue to consult with OGC and with
           agency officials as it had done in the past, but that it would not assemble a team. We
           believe a team is needed to help ensure all terms of the agreements are proper and can
           be implemented.

           We recommended that CR appropriately plan its investigations and conduct them in an
                                            35
           effective and efficient manner.     CR stated the new departmental regulations and
           procedures would address our recommendation. However, the draft procedures do not
           state that a CR manager or investigations supervisor needs to review and approve the
           investigative plans. The draft procedures also do not call for any supervisory oversight
           during the investigative process. The only supervisory oversight mentioned in the
           draft procedure deals with the approval of the ROI after the investigator writes it.

           The chief of the Program Investigation Division said she was putting together
           procedures that would require her to review and approve all investigative plans. The
           procedures, as described to us, would address our concerns.

           We recommended that CR design and implement a quality control system over the
                                                       36
           review process for reports of investigation. We recommended in our Phase V report
           that CR implement a quality control system that, at a minimum, would include
           tracking procedures for recording the dates of supervisory reviews, the deficiencies
           noted, the corrective actions taken, the adequacy of actions taken, and the number of
           times and to whom deficient reports were returned for corrections.
           CR responded by stating that the head of the investigative unit will review the ROI’s
           and submit them to the adjudication unit. However, there is no mention of this quality
           control process in CR’s regulations and procedures. Also, CR’s response calls for the
           adjudication unit to review the report and make a determination of whether the report

33
   Recommendation 3 (Note: Recommendation 3a in Exhibit A) from our Phase VI evaluation, Evaluation of the
Office of Civil Rights’ Efforts to Implement Civil Rights Settlements, (Report No. 60801-2-Hq), dated March 24,
1999.
34
   Recommendation 4b from our Phase VI evaluation, dated March 24, 1999.
35
   Recommendation 3a from our Phase V evaluation, dated September 30, 1998.
36
   Recommendation 3b from our Phase V evaluation, dated September 30, 1998.

USDA/OIG/A 60801-4-Hq                                                                                Page 21
          is complete and sufficient. In our recommendation, we stated that adjudicators should
          not conduct the quality control reviews of reports.

          We recommended that CR resolve all our prior recommendation within 2 months (of
                              37
          September 30, 1998). As noted, over half the recommendations are unresolved.

Recommendation 5

          Direct CR to find the 83 missing files and determine their status.

          CR Response

          Through the file room project, CR will identify any missing files, as well as establish
          files for any intend-to-file cases for which CR has received correspondence but has not
          yet developed a file. CR will have statistics available on these 83 files by March 31,
          2000.

          OIG Position

          CR’s response is sufficient to reach management decision.

Recommendation 6

          For the five recommendations CR reported as implemented but that were not
          implemented, direct CR to immediately develop a corrective action plan. The CR
          director should be held accountable for the implementation of this plan.

          CR Response

          At the exit discussion on February 24, 2000, and as part of CR’s official response to
          the draft report, CR provided us information related to this recommendation.

          OIG Position

          We will review the information provided and will meet with CR to make a
          determination as to whether we can reach a management decision.




37
   Recommendation 15 from our Phase V evaluation, dated September 30, 1998. Note: This recommendation
appears as 15a in Exhibit A)

USDA/OIG/A 60801-4-Hq                                                                       Page 22
Recommendation 7

          For the other 17 recommendations that CR has not yet addressed, direct CR to
          complete all actions necessary to implement these recommendations within 60 days of
          issuance of this report.

          CR Response:

          At the exit discussion on February 24, 2000, and as part of CR’s official response to
          the draft report, CR provided us information related to this recommendation.

          OIG Position:

          We will review the information provided and will meet with CR to make a
          determination as to whether we can reach a management decision.


                                                    Although CR has partially implemented 19 of
Conclusion No. 4
                                                    our prior recommendations, we concluded
CR Has Partially Implemented Some
                                                    that significant improvements in CR
Prior Recommendations
                                                    operations are still needed in order for CR to
                                                    operate efficiently and effectively.

          We recommended that CR review the five administratively closed cases that did not
                                                       38
          contain any evidence to support closing them. CR stated that these cases were part
          of the original backlog and were consequently reviewed. We received a listing of the
          cases reviewed by the administrative closure teams from the Early Case Resolution
          Task Force. We found that these teams had reviewed four of the five cases. They did
          not review the fifth case.
                                                                                    39
          We recommended that CR create a position for managing contracts (contracting
          specialist) to provide proper and timely oversight of the quality of work submitted by
          contractors. CR stated that this position has been created. However, CR’s
          reorganization package (known as a “1010 package”) did not reflect a contract
          specialist position. An unapproved version of the package reflected a contract
          specialist under the resource management staff. We were told that this position had
          been announced. The position description was in draft and was currently awaiting
          signature in the director’s office.

38
   Recommendation 4c from our Phase V evaluation, dated September 30, 1998.
39
   Recommendation 5 from our Phase V evaluation, dated September 30, 1998. Note: This recommendation
appears as 5a in Exhibit A.

USDA/OIG/A 60801-4-Hq                                                                      Page 23
           We recommended that Federal and departmental regulations on processing program
                                                                40
           discrimination complaints be updated and published. CR responded that they and
           OGC have worked on developing revised departmental regulations, internal
           regulations, and manuals, scheduled to be finalized by December 31, 1998. We were
           provided with the finalized Departmental Regulations. We have not been provided
           with the finalized Code of Federal Regulations (CFR’s).
                                                                                                         41
           We recommended that CR provide training to staff personnel as soon as possible.
           CR responded that the deputy director for systems and administration would develop
           plans for future training needs of CR staff. In addition, civil rights training was being
           planned for all USDA staff.

           We determined the deputy director for systems and administration no longer has any
           direct involvement in the development of training plans. We were told that CR is
           working with Howard University to develop a continuing education program.
           However, little or no actual training has been provided. CR has made some effort to
           assess the training needs of its staffmembers, but it has not followed through with the
           training.

           We recommended that CR close cases only after all terms and conditions of settlement
                                                42
           agreements have been implemented. CR responded that it is developing procedures
           to monitor and track all settlement agreements. These procedures have not yet been
           issued, and CR continues to close all settlement cases.

           We recommended that CR reevaluate all discrimination complaints closed and
                                                                                  43
           forwarded to program managers by FSA without concurrence from CR. There were
           originally 26 cases in this category, but CR had reduced them to 5 by the time of our
           Phase IV evaluation. Little or no effort has been made since then to review the
           remaining five cases.
                                                                                                   44
           We recommended that CR reconcile its data base with those of the agencies. CR
           responded by stating that it had formalized its monthly meetings to reconcile
           complaint data. During this review, we found that CR has some procedures in place to
           accomplish the monthly reconciliations, but that the procedures were not being
           followed. Also the procedures have not been formalized in any manual.

           The deputy director for systems and administration said that the reconciliation

40
   Recommendation 5 from our Phase I evaluation, dated February 27, 1997. Note: This recommendation appears
as 6 in Exhibit A)
41
   Recommendation 9b from our Phase V evaluation, dated September 30, 1998.
42
   Recommendation 4a from our Phase V evaluation, dated September 30, 1998.
43
   Recommendation 1c from our Phase I evaluation, dated February 27, 1997.
44
   Recommendation 1d from our Phase I evaluation, dated February 27, 1997, and recommendation 11c from our
Phase V evaluation, dated September 30, 1998.

USDA/OIG/A 60801-4-Hq                                                                            Page 24
           meetings do not achieve any consensus on the number of open complaints in
           existence. He said that when the agencies note discrepancies in CR reports, he
           forwards the discrepancies to the chief of program investigations to make the changes.
            The chief of program investigations said that when she receives the proposed changes,
           she evaluates them and makes those that are warranted. However the deputy director
           said that when he gets the report for the agencies the next month, he sees the same
           errors.

           We recommended that CR establish a system to control and monitor the
                                                                       45
           implementation of settlement and conciliation agreements.       CR asserted that the
           regulations, manuals, and procedures will adequately address our concerns. According
           to CR’s draft procedures, the director of the compliance division will follow up with
           the agency biweekly or as needed on implementation progress and conduct periodic
           checks with the complainant concerning implementation of the agreement. CR needs
           to issue the procedures in final form or establish a timeframe within which to issue
           them in final form.

           We recommended that CR urge the Secretary to establish an Assistant Secretary for
                                               46
           Civil Rights at the subcabinet-level to resolve cross-cutting issues between agencies
           and CR. CR stated that effective fiscal year 2000, CR would not be a part of
           Departmental Administration. CR gave us a copy of the legislative program
           establishing the position of Assistant Secretary for Civil Rights. According to the CR
           director, as of October 29, 1999, the legislation was still at the Office of Management
           and Budget. Final action will not be completed until the legislation is finalized.
           We recommended that CR develop staff training plans that adequately reflect the
                                         47
           training needs of the agency. CR stated it established a committee composed of CR
           employees to review the training requests submitted by the employees. Based on the
           recommendations of the committee, CR is approving one training request for each
           employee. If funds are available, CR will consider additional training opportunities.
           CR will establish job-specific training for its staff.

           In related developments, a CR official had been meeting with a Howard University
           professor to establish a comprehensive training program. The official expected the
           Howard University training to begin sometime in December 1999. He also noted that
           all the investigators and some of the other staff attended training by the Department of
           Justice on federally assisted programs.

           CR needs to provide us with its assessment for training and timeframes for

45
   Recommendation 4b from our Phase V evaluation, dated September 30, 1998, and recommendations 1a, 1b, 1c,
and 2b from our Phase VI evaluation, dated March 24, 1999.
46
   Recommendation 7 (Note: Recommendation 7a in Exhibit A) from our Phase V evaluation, dated September 30,
1998.
47
   Recommendation 9a from our Phase V evaluation, dated September 30, 1998.

USDA/OIG/A 60801-4-Hq                                                                            Page 25
           establishing training plans.

           We recommended that CR provide a mechanism for employee input into office
                     48
           operations through quality control sessions and other forums. CR stated their
           management staff solicited input and ideas from its management team and key staff
           members prior to developing its reorganization. CR also stated that the director and
           other management staff will hold regular staff meetings to provide information and
           opportunities for all employees to voice concerns.
           We reviewed the approved reorganization of CR. We believe CR has provided a
           mechanism for employee input, but as yet CR’s actions have had little effect. We
           observed that employee morale was still low.
           We recommended that CR issue within a 2-month timeframe standard operating
                                                            49
           procedures for program complaint processing. In its first response, CR stated it was
           scheduled to issue the standard operating procedures by February 1, 1999. In its second
           response, CR stated the standard internal operating procedures would be completed and
           implemented by July 30, 1999. As of the date of this review, these procedures have not
           been finalized, but a very detailed draft version has been completed, and according to the
           chief of the Program Investigation Division, that version is currently being followed by
           CR investigators.

           We recommend that CR, in consultation with OGC and the Office of Human Resource
           Management (OHRM), include a disciplinary action section in the departmental
                       50
           regulations as a means of formalizing general requirements and procedures applicable
           to employees cited by complainants in program discrimination cases who have acted in
           an improper manner. CR, OGC and OHRM have drafted a detailed policy on discipline
           in civil rights cases. This policy has been transmitted to the Secretary for signature. As
           of the date of our review, these procedures have not been made official.

           We recommended that CR develop a comprehensive plan to review civil rights
                                             51
           compliance at all agency levels.      CR responded that it will be providing agency
           program orientation to staff assigned to the compliance division. No timeframe has
           been established to complete this recommendation.




48
    Recommendation 10 from our Phase V evaluation, dated September 30, 1998. (Note: Recommendation 10 is
listed as 10a in exhibit A.)
49
    Recommendation 14 from our Phase V evaluation, dated September 30, 1998. (Note: Recommendation 14 is
listed as 14a in exhibit A.)
50
    Recommendation 2a from our Phase VI evaluation, dated March 24, 1999.
51
    Recommendation 6 from our Phase I evaluation, dated February 27, 1997. (Note: Recommendation 6 is listed as
7 in exhibit A.)

USDA/OIG/A 60801-4-Hq                                                                                Page 26
Recommendation 8

       For the 19 recommendations that CR has not yet fully addressed, direct CR to
       complete all actions necessary to implement these recommendations within 60 days of
       issuance of this report.

       CR Response:

       At the exit discussion on February 24, 2000, and as part of CR’s official response to
       the draft report, CR provided us information related to this recommendation.

       OIG Position:

       We will review the information provided and will meet with CR to make a determination
       as to whether we can reach a management decision.




USDA/OIG/A 60801-4-Hq                                                              Page 27
Chapter 3: New Issues of Concern


CR Needs To Improve Its Intake Process of Current Cases

            During our Phase V review, we questioned the system CR used to process program
            complaints. CR was operating under a component system, which assigned staff to a
            single component of processing, such as the intake component, rather than to a
            caseload, which they would process completely, from intake to adjudication. CR
            agreed with our assessment of their system. In response to our recommendation to
            adopt a case management system, CR stated that departmental regulations and the
            draft manual would address our concerns. We found that the process described in the
            draft regulation was not significantly different from the process we took exception to.

            To determine if the system in place had improved, we reviewed CR’s management of
            program discrimination complaints that had been received since November 1, 1997,
            the date used by CR to distinguish new complaints from the original backlog it had
            inherited from the old Civil Rights Enforcement and Adjudication branch of the
            Department. Our main focus was on CR’s handling of complaints during the intake
            phase of processing.

            Under CR procedures, when a complaint letter is received by the Intake Unit of CR, it
            is assigned a case number and entered into the data base in the “intend-to-file” group
                                                                                      52
            until CR determines whether it has jurisdiction to process the complaint. While in
            this group, CR gathers information to either process the complaint or close it. This
            process is called “perfecting” the complaint.

            During the perfecting process, CR must determine if the complainant has a statutory
            “basis” and an “issue.” In other words, the complainant must declare himself or
            herself a member of a protected group to show the basis for a civil rights complaint,
            and he or she must indicate that the adverse action taken was because he or she was a
            member of this protected group (issue). Once all the necessary information is obtained,
            the complaint is formally accepted and should be moved to the “new” group and
            processed as a formal complaint, where it will be investigated and adjudicated.

            We determined that the current system still does not move cases efficiently through the
            intake phase. Under the current system, CR has imposed on itself a deadline of 30
                                          53                                  54
            days to “perfect” a complaint and another 180 days to resolve it. Using CR’s data
            base, we determined that for fiscal year 1999, CR took, on average, 126 days to perfect

52
   When CR implemented its new CRCTS data base, it began calling “intend-to-file” cases “claims” and no longer
uses “new” for perfected complaints. These are simply called “complaints.”
53
   Departmental Manual 4330-2MAN (draft), dated June 1999, section III-A Intake, 1.b.
54
   Departmental Regulation 4330-3, dated March 3, 1999, 10.e. (4).

USDA/OIG/A 60801-4-Hq                                                                                 Page 28
       its complaints and another 174 days to process cases (see Table 9) through
       investigation and adjudication.

       The CR Director maintained that CR has shown progress in processing program
       complaints under the system that is in place. During an August 3, 1999, briefing of the
       Secretary and other USDA officials, the CR director used the chart below to show that
       the average number of days taken to process a program complaint had been reduced
       over the past 3 years.




               Table 8: Chart Used by CR Director To Show Progress in CR’s Processing Time

       To understand how these numbers were derived, we examined the data CR used. We
       found that the numbers are misleading and do not accurately reflect the average time it
       has taken CR to completely process a program complaint. The numbers used for fiscal
       years 1998 and 1999 represent the average number of days to close complaints regardless
       of whether or not the case was accepted as formal. The numbers for these years include
       intend-to-file cases, many of which never became formal, either because CR had no
       jurisdiction in the matter or because the complainant withdrew the complaint.
       Consequently, these cases were never processed as formal complaints. The numbers
       also include intend-to-file cases that had incorrectly been classified as “new” and closed
       immediately, thereby showing a processing time of (zero) days. We discovered that
       these types of cases made up over a third of CR’s fiscal year 1998 processing average of
       193 days (see Table 9). Furthermore, because CR measured the processing time
       beginning with the date of formal acceptance of a complaint, the amount of time it took
       CR to perfect a complaint was not included in the averages. We found that it took CR
       126 days in FY 1999 to perfect complaints. This is over 3 months longer than CR’s self-
       imposed timeframe of 30 days (see conclusion 5, subsection c).

       We also determined that the numbers used in the CR Director’s chart do not provide a
       meaningful comparison of timeframes for the 3 fiscal years. Although the numbers may

USDA/OIG/A 60801-4-Hq                                                                        Page 29
       be understood to represent the number of days that it took to close all cases closed during
       those 3 fiscal years, they actually represent the average number of days to close cases that
       were opened in each of those fiscal years. This gives a statistical advantage to cases
       opened most recently. For example, the figure of 124 days for fiscal year 1999 is the
       average number of days that it took to close all cases that had been opened between
       October 1, 1998, and August 2, 1999, a processing period that could not exceed 306
       days. By comparison, the figure of 516 days for fiscal year 1997 is the average number
       of days it took to close all cases that had been opened between October 1, 1996, and
       September 30, 1997, and that had been closed as late as August 2, 1999. This counts all
       cases that were opened in the 365-day period and that may have been processed over as
       long a timeframe as 1,033 days.

       We recalculated CR’s processing time by excluding those cases with zero days but using
       CR’s date of formal acceptance as a start date. The chart below shows our averages, as
       well as the average age of open cases as of August 2, 1999 for the 3 years depicted. We
       suggest that the average age of open cases more closely reflects processing time because
       CR’s figures are based on those 1999 cases that could be closed within the first 306 days
       of the fiscal year; the remaining open cases are those that are clearly taking longer.

                          P R O G R A M C O M P L A INT P RO C E S S ING T IM E S

                           124
                                                                            CR
           FY99                  174
                                       206
                                                                            O IG

                                   193
                                                                            A verage A ge of Open
           FY98                              293
                                                                            Cas es
                                                         440



                                                               516
           FY97                                                524
                                                                                        872



                  0              200               400               600     800                    1000




          Table 9. OIG Calculation of Program Complaint Processing Time Using CR’s Data Base.

       We emphasize that because cases from 1998 and 1999 are still open, the chart in Table 9
       cannot offer a meaningful comparison between the 3 fiscal years. As the cases become
       resolved in fiscal year 2000, the average processing times for both years will grow.

       When we asked the CR Director about her charts, she stated that her staff had prepared
       them and that she did not know what data made up the averages. She maintained,
       however, that in her opinion, the charts were a valid presentation of the data.

       To test our assumptions about the efficiency of CR’s current processing system, we
       reviewed the status of current complaints that were in the intake stage of processing or

USDA/OIG/A 60801-4-Hq                                                                               Page 30
       had been closed during intake. From CR’s September 7, 1999, data base, we determined
       there were 939 open intend-to-file cases (of which 92 were classified in CR’s data base
       as class complaints) and 711 closed intend-to-file cases (of which 86 were class
       complaints). We selected 188 of these cases for a detailed review (87 open cases and
       101 closed) and found CR had closed 69 percent of the closed cases without following
       proper procedures. We identified five specific areas of concern with the current process:

        o CR did not mail acknowledgment letters to 30 complainants in a timely manner
          and did not send letters at all to 57 complainants,

        o CR’s acknowledgment letters are poorly worded and may confuse complainants,
          which may result in improper case closures,

        o Although CR had obtained the necessary information for 39 of the 87 open intend-
          to-file cases we selected for review, CR was not processing these cases as
          complete complaints,

        o CR did not close 16 intend-to-file cases after the complainant failed to provide CR
          with required information, and

        o Of the 101 closed intend-to-file cases we reviewed, CR had closed 69 percent
          without giving the complainant an opportunity to submit a perfected complaint or
          ensuring that the complainant understood the requirements for a program
          discrimination complaint.

       We noted that CR’s inefficiency during the intake process has resulted in a backlog of
       intend-to-file cases. During our audit, CR has tried to decrease its number of open
       intend-to-file cases, reducing it from 939 as of September 7, 1999, to 719 as of
       December 1, 1999. Although not all 719 cases show when the complaints were filed,
       we determined that all 454 cases with a date of complaint in the data base have been in
       intake longer than 30 days. Of these, the average open file had been in intake a total of
       371 days. The chart on the following page depicts the numbers of cases in five age
       categories, as well as the number of cases whose age was undeterminable.




USDA/OIG/A 60801-4-Hq                                                                  Page 31
                                           A g e o f O p e n 'In te n d to F ile' Ca s e s

                Over 720 days                  20

             541 and 720 days                                84

             361 and 540 days                                             132

             181 and 360 days                                       109

               0 and 180 days                                       109

                 Undetermined                                                                      265
                 Due to miss ing dates .

                                           0        50        100          150         200   250         300
                                                                  N um ber of C ases


            Table 10. Age of CR’s Open Intend-To-File Cases, as of December 1, 1999.

        As Table 10 suggests, at CR’s current rate of perfecting complaints, the average age of
        the open intend-to-file cases will only grow over time because the bulk of the cases
        already exceed by tenfold CR’s 30-day timeframe for perfecting the complaints, while
        additional cases are added to the Intake Unit’s workload at an average rate of about 25 a
        month.


                                                   CR had not ensured that all complainants
Conclusion 5
                                                   were given an equal opportunity to voice their
Not All New Complaints Are Processed
                                                   concerns regarding alleged discriminatory
With Due Care During CR’s Intake Phase
                                                   treatment.   During our audit, we noted
                                                   inconsistent actions during each phase of
        CR’s intake process, from acknowledging when a complaint was received to
        reclassifying intends as new complaints. We noted CR had acknowledged some of the
        complaints but not others and had continued processing some complaints but not
        others. As a result, CR is not treating all complainants fairly.

        In addition, we found that CR does not monitor and report its entire processing times
        for complaints because its data base is designed to overwrite the actual date of
        complaint with the date CR considers the complaint to be perfected. This is because
        the 180 day self-imposed timeframe for processing a complaint starts on the day CR
        determines it has jurisdiction to process the complaint. We found that on average, it
        took CR 241 days to determine that it did not have jurisdiction to process 82 intends
        cases before closing them, even though CR’s own self-imposed timeframe is 30 days.
        We also found that it took CR an average of 126 days to perfect complaints in addition
        to 174 days to process those complaints in FY 1999. For those complaints processed



USDA/OIG/A 60801-4-Hq                                                                                      Page 32
              in FY 1998, which took 293 days to complete, it took CR, on average, 64 days to
              perfect them, about half the time it is taking CR to perfect complaints in FY 1999.

              When a possible discrimination complaint is received, CR assigns a case number and
              classifies the complaint in its data base as an “intend-to-file” case until it determines
              whether it has jurisdiction. Within 5 days of receiving a discrimination complaint, CR
                                                                                                     55
              must send the complainant a letter acknowledging that the complaint was received .
              During this intake phase, CR must make a determination of whether or not to accept
                                                 56
              the complaint for investigation.       To fully process a complaint, CR must have
              jurisdiction over both the subject matter of the complaint and the agency, program, or
              activity in which discrimination is alleged to have occurred. CR may not be able to
              make this determination based on the initial correspondence from the complainant and
              may request additional information through its Acknowledgment Letter. If all
                                                                                                      57
              necessary information is not received in a timely manner, CR may close the case.
              CR has a self-imposed 30-day time limit to either close the intend case or reclassify
                                       58
              the complaint as “new.”

              During our audit, we noted problems with each phase of CR’s intake process. We
              reviewed 87 open intend-to-file cases and found CR had not been mailing
              Acknowledgment Letters in a timely manner, if it was mailing them at all; the
              Acknowledgment Letters CR sent were poorly worded and confusing; CR was not
              processing cases as “new” complaints after all the necessary information was received;
              and CR had not closed intend cases even though the complainant failed to supply the
              necessary information.

              a.    Not All Complainants Receive Acknowledgment Letters in a Timely Manner

                    CR has not been mailing Acknowledgment Letters to the complainants in a
                    timely manner and may not have sent some letters at all. In our sample of 87
                    open intend-to-file cases, we noted that in 57 cases an Acknowledgment Letter
                    was not sent (66 percent)and in the remaining 30 cases the letter was not sent in a
                    timely manner. Based on the date of the complaint and the date of the letter, we
                    calculated that the average time it took CR to acknowledge these 30 complaints
                    was 122 days. CR procedures require an Acknowledgment Letter be sent within
                           59
                    5 days. The 57 complainants who did not have Acknowledgment Letters in
                    their files have waited for 264 days without receiving any form of
                    acknowledgment (as of our file review date of October 1, 1999).



55
     Department Manual 4330-2MAN (draft), dated June 1999, section III-A Intake, 9.a. and 10.b.
56
     Department Manual 4330-2MAN (draft), dated June 1999, section III-A Intake, 10.a.
57
     Department Manual 4330-2MAN (draft), dated June 1999, section III-A Intake, 10.b.ii (5)
58
     Department Manual 4330-2MAN (draft), dated June 1999, section III-A Intake, 1.b.
59
     Department Manual 4330-2MAN (draft), dated June 1999, section III-A Intake, 9.a. and 10.b.

USDA/OIG/A 60801-4-Hq                                                                             Page 33
              b.   Acknowledgment Letters for Incomplete Complaints Are Poorly Worded and
                   Confusing

                    CR’s Incomplete Complaint Acknowledgment Letters are poorly worded and
                    may result in improper case closures due to confusion on the part of
                    complainants. In the letter, CR is to describe in as much detail as possible the
                    information needed in order for the complainant to complete the complaint and to
                                                      60
                    enable it to be processed further.    The letters do not provide the complainant
                    with fundamental information and may not be effective in extracting necessary
                    information from the complainant so CR can make an informed decision on
                    whether the complaint needs to be processed further. The letters do not assist the
                    complainant with the complaint process but may, in effect, lead to confusion and
                    unresponsiveness, causing CR to close cases with legitimate complaints of
                    discrimination.

                    CR had three form letters for incomplete complaints. We found these letters
                    ambiguous and open to multiple interpretations. Complainants typically do not
                    have experience writing discrimination complaints and may need examples of
                    what is expected. The letters did not always provide these examples.

                    For instance, one of the letters noted a covered “basis” and “issue” were two of
                    the conditions that had to be met. The letter stated, “This means that you have
                    reason to believe that one or more of your personal characteristics motivated the
                    officials, and the law bars that characteristic from playing a role in their decision
                    making.” No examples of either a “basis” or an “issue” were given. We believe
                    CR was asking if the complainant was a member of a protected class (identified
                    by race, national origin, color, religion, etc.), and we believe CR was asking the
                    complainant to show that the alleged discriminating official used this basis as a
                    factor in the adverse action. However, this letter was not clear in the information
                    being requested.

                    We also noted that the three form letters were inconsistent in their response
                    requirements. The first form letter states, “If we have not received the
                    information within 30 days from the date you receive this letter, your complaint
                    will be closed with no further action by CR.” The second form letter states, “If
                    we have not received the information within 20 days from the date you receive
                    this letter, your complaint will be closed with no further action by CR.” The third
                    form letter states, “you must provide our office with additional information
                    within 15 days of the date of receipt of this letter” (emphasis included in form
                    letter).



60
     Department Manual 4330-2Man (draft), dated June 1999, section III-A Intake, 10.b.

USDA/OIG/A 60801-4-Hq                                                                           Page 34
                                        61
                    CR’s procedures state that the complainant should be informed that he or she
                    has 15 days from the date of receipt of the Acknowledgment Letter to provide the
                    requested information. The procedures also instruct the letter-writer to notify the
                    complainant that he or she may request up to 10 additional days to provide the
                    requested information under certain circumstances (listed in the procedures). The
                    third form letter listed the correct number of days, but it did not inform the
                    complainant that he or she may request an additional 10 days.

              c.    Not All Complaints Are Processed Expeditiously

                    CR had not reclassified 45 percent of the open cases we reviewed from
                    incomplete complaint to complete complaint after the necessary information was
                    obtained. As a result, complainants’ completed or perfected complaints are not
                    being resolved and “new” complaint totals are in reality higher than reported in
                    the data base.
                                      62
                    CR procedures state a complaint is complete (perfected) if it includes five
                    required elements. These five required elements are a signature from the
                    complainant, the complainant’s name and contact information, the basis of the
                    complaint, identification of the agency, program, or representative alleged to have
                    committed illegal discrimination, and a description of issues or subject matter and
                    the date when the alleged discrimination took place.

                    We found CR did not reclassify 39 of the 87 open incomplete complaints as
                    complete after receiving the five required elements. These cases are still thought
                    of as incomplete complaints. As such, resolution of these complaints, either
                    through an investigation, early resolution, or pre-investigation settlement, had not
                    begun.

                    We also found that CR does not track its processing times for intends cases
                    because CR starts tracking the 180-day processing limit on the day intends are
                    reclassified as “new” complaints. Using CR’s data base, we determined in fiscal
                    year 1999 it had taken CR an average of 126 days to process intends cases and
                    reclassify them as “new.”

              d.    CR Needs To Clear Its Data Base of Cases From Unresponsive Complainants

                    CR did not close all intend-to-file cases after the complainant failed to provide
                    CR with required information in the allotted time period. As a result, CR has an
                    artificially high total of incomplete open complaints and complainants are
                    unaware that their cases have not been accepted by CR.

61
     Department Manual 4330-2MAN (draft), dated June 1999, section III-A Intake, 10.b.ii (2) and (3).
62
     Department Manual 4330-2MAN (draft), dated June 1999, section III-A Intake, 7.a. through e.

USDA/OIG/A 60801-4-Hq                                                                                   Page 35
                    If a complainant does not provide CR with all necessary information needed to
                    complete a complaint in the original complaint letter, CR requests additional
                    information. The most time CR gives the complainant for submission of this
                                                                                                 63
                    necessary information is 25 days after the Acknowledgment Letter is received.

                    We previously reported that CR only formally acknowledged 30 of the 87 open
                    cases we reviewed. However, 2 of these 30 complainants have since become part
                    of the class action which bars CR from processing these cases. The remaining 28
                    are broken down into 2 categories: those who responded to the
                    Acknowledgement Letter (14 cases) and those who did not (14 cases). The 14
                    cases in which the complainant did not respond to the Acknowledgment Letter
                    had been open an average of over 6 months (from the date of the data base of
                    September 7, 1999). Twelve of these cases should be closed. (We determined
                    that two individuals had submitted all the required information in their original
                    complaint letters and did not need to respond to CR’s Acknowledgment Letter.)

                    Of the 14 complainants who responded to the Acknowledgment Letter, 4 did not
                    provide enough information to complete the complaint while 10 submitted the
                    required information and should have been considered complete and moved
                    forward in the complaint processing system (these 10 are part of the 39 we
                    detailed in subsection c of this conclusion). The four cases in which the
                    complainant did not provide the required information should be closed. These
                    cases had been open an average of 200 days since the complainant responded to
                    the Acknowledgment Letter.

                    In total, we determined 16 cases should be closed either because the complainant
                    failed to respond to CR’s Acknowledgment Letter (12 cases) or because their
                    response did not include all required information (4 cases).

                    Delays in closing cases not only affect the complainant but also the agency with
                    which the complaint was lodged. For example, under FSA’s Farm Loan
                    Programs, adverse servicing action against a borrower is normally suspended if a
                    complaint of discrimination has been filed and the complaint remains unresolved.
                     FSA’s Deputy Administrator for Farm Loan Programs informed us that once a
                    civil rights discrimination complaint is filed, regardless of whether CR considers
                    it complete or not, servicing actions such as foreclosure must be halted and may
                    not proceed until CR closes the borrower’s discrimination complaint. Although
                    we were not aware of any servicing problems, we did find a case in which CR did
                    not timely notify FSA of an outstanding complaint. CR’s data base indicated the
                    complaint was received on April 8, 1999; we determined that FSA was not
                    notified until October 21, 1999, over 6 months later. The agencies need to be

63
     Department Manual 4330-2MAN (draft), dated June 1999, section III-A Intake, 10.b.ii (2) and (3).

USDA/OIG/A 60801-4-Hq                                                                                   Page 36
            informed immediately of outstanding complaints so no adverse action is taken
            against the complainant until CR closes the case. Likewise, agencies should be
            notified expeditiously of all closed intend cases so that agency administrative
            processing can continue.

Recommendation 9

       Direct CR to issue Acknowledgement Letters to all complainants within 5 days after
       receipt of the complaint, in accordance with the Department manual.

       CR Response:

       CR’s Procedures Manual requires Acknowledgment letters to be sent to complainants
       within five days of receipt of the complaint.

       OIG Position:

       In order to reach a management decision, CR needs to demonstrate that internal controls
       will be put in place to ensure that the Acknowledgment Letters are sent to complainants
       within 5 days as prescribed by CR’s procedures manual.

Recommendation 10

       Direct CR to review all remaining open intend-to-file cases and determine whether CR
       had acknowledged all complaints; whether any cases should be moved forward in the
       complaint resolution process; and whether any have been open beyond the established
       timeframe. Where appropriate, immediately send Acknowledgment Letters to
       complainants; move cases forward in the resolution process; and close complaints
       from unresponsive complainants.

       CR Response:

       CR is currently in the process of completing a project that will resolve all outstanding
       intend complaints currently listed as open in the database. As of February 28, 2000, the
       number of open non-class intend complaints is 169. CR anticipates a complete
       resolution of these cases by March 31, 2000. Prior to acceptance, referral, or closure of
       any intend complaint, a member of the Deputy Director’s staff will review the case file
       and ensure that the correct action is being taken on the cases.

       OIG Position:

       We agree with the action taken. However, to reach a management decision, CR needs to
       provide us with statistics on the resolution of the intend-to-file cases since our review.

USDA/OIG/A 60801-4-Hq                                                                   Page 37
       As of December 1, 1999, there were 646 open intend-to-file cases. CR needs to account
       for the difference between the 646 cases and the 169 open intend-to-file cases it indicates
       were remaining as of February 28, 2000.

Recommendation 11

       Direct CR to standardize the Acknowledgement Letters so they contain all the required
       information and explain what information is needed from the complainant.

       CR Response:

       CR has modified its 15-day letter to communicate more clearly the information needed
       to process the complaint.

       OIG Position:

       We still have concerns about the modified letter. The protected bases are defined in
       Departmental Regulations 4330-2 and 4330-3. According to these regulations, the
       protected bases are race, color, national origin, gender, religion, age, disability, marital
       status, familial status, sexual orientation, or because all or part of an individual’s income
       is derived from any public assistance source. The modified letter lists political beliefs
       and income as protected bases. Also the revised letter failed to inform the complainant
       that familial status and sexual orientation are protected bases. In addition, the letter
       should inform the complainant that he or she could request an additional 10 days to send
       the requested information.

       In order to reach management decision on this recommendation, CR needs to consider
       the other bases mentioned in the regulations and provide us with a revised letter.

Recommendation 12

       Direct CR to reclassify the 39 cases as new complaints and move them forward in the
       complaints resolution process.

       CR Response:

       CR has initiated the process of evaluating open intend-to-file claims. The 39 cases will
       be reclassified as necessary as a result of this process.

       OIG Position:

       Before we can reach management decision, CR needs to provide us with the statistics on
       these 39 cases.

USDA/OIG/A 60801-4-Hq                                                                      Page 38
Recommendation 13

       Direct CR to monitor and report its processing times for incomplete cases in order to
       determine whether it is achieving its standard of 30 days to process these cases and to
       identify trends and other areas needing immediate attention.

       CR Response:

       The CRCTS system tracks this automatically. The review system described provides for
       these cases to be reviewed weekly. With regard to the existing “intend-to-file” cases, CR
       has already identified them and is working to resolve them.

       OIG Position:

       CR’s response is sufficient to reach management decision.

Recommendation 14

       Direct CR to close the 16 incomplete cases that we determined remained open beyond
       the established timeframe.

       CR Response:

       CR has initiated the process of evaluating open intends-to-file claims.         The 16
       incomplete cases will be closed as a result of this process.

       OIG Position:

       Before we can reach management decision, CR needs to provide us with the statistics on
       these 16 incomplete cases.

Recommendation 15

       Direct CR to immediately notify program agencies of all open and closed intend-to-
       file cases (now referred to as “claims” by CR) so that proper actions can be taken, and
       ensure that this is routinely done on all future cases.

       CR Response:

       CR’s reconciliation SOP currently calls for a monthly report containing this information
       to be issued. CR may modify the SOP to require the report to be distributed weekly.

USDA/OIG/A 60801-4-Hq                                                                  Page 39
        The modification will take effect on or before March 31, 2000.

        OIG Position:

        The current monthly report does not appear to be a timely notification to the agencies.
        Before we can agree to a management decision, CR needs to provide for some other
        method of immediately notifying the agencies of open or closed cases.


                                                CR improperly closed 70 of 101 (69 percent)
Conclusion 6
                                                cases by not affording the complainant an
Not All Complainants Are Informed
                                                opportunity to submit a perfected complaint or
Of CR Requirements for a Complaint
                                                ensuring that the complainant understood the
                                                requirements for a program discrimination
        complaint. The remaining 31 complainants had obtained or been provided the
        additional information needed for a perfected complaint. As a result, some
        complainants who had been discriminated against may have had their cases closed, not
        through the formal investigation and adjudication process, but simply because they did
        not understand how to submit a complaint.

        We reviewed 25 closed intend-to-file cases to determine if the case was properly
        closed. We found 15 of the cases were not properly closed. Based on this, we
        expanded our review. In total, we reviewed 101 closed intend-to-file cases and
        determined that 70 were not properly closed.

        We found that when complainants did not provide all the necessary information to CR
        with their original complaint letter, they were not always told why their original
        complaint was incomplete. CR closed some complaints without giving the
        complainant an opportunity to fully explain his or her situation within the boundaries
        of CR’s definition of a complete complaint.

        One case file we reviewed contained a complaint against a county office’s pricing
        practice in the Loan Deficiency Payment program. The complainant’s letter did not
        contain all of the required elements of a complete complaint. The complainant did not
        provide CR with the basis or issue of the complaint.

        In this case, CR did not send the complainant an Incomplete Complaint
        Acknowledgment Letter requesting the necessary information, as required. Instead,
        CR sent the complainant a closure letter. CR’s letter states, “The Office of Civil
        Rights (CR) has received your October 29, 1998, letter in which you complain that
        FSA . . . gave you misinformation which caused you to lose money under the Loan
        Deficiency Payment program. We do not understand you to allege that this action was
        motivated by a personal characteristic covered by the civil rights provisions that
        regulate the conduct of FSA officials.” CR’s letter further states that because CR did

USDA/OIG/A 60801-4-Hq                                                                 Page 40
       not have the authority to review actions that did not involve a potential civil rights
       violation, it was administratively closing the case.

       While CR’s claim that it had no authority in the case may appear valid, the
       complainant may not have known the procedures CR follows when processing
       complaints. The complainant may not have known what elements were required when
       submitting a complaint. The purpose of the Acknowledgment Letter is to tell the
       complainant what is required to further process the complaint. Only after the
       complainant is informed of the requirements and submits a response to the
       Acknowledgment Letter should CR make a determination of whether to further
       process the complaint or close it.

       CR also failed to fully inform complainants of required information. CR requires
       complainants to state a correlation between the “basis” of the complaint (e.g., race)
       and the “issue” (e.g. denial of financing). For example, if a complaint argues that he
       did not get a loan and uses age as his protected basis, the complainant would have to
       show his age was the deciding factor when the USDA official denied the loan. CR
       will no longer accept a simple statement by the complaint that age was the “basis.”

       We found one instance where the case was closed because the complainant failed to
       show a correlation between the basis and the alleged discriminatory act. In this case,
       the complainant used the USDA Program Discrimination Complaint form to state his
       basis. The basis area of this form includes boxes to check next to protected bases.
       The complainant is instructed on the form to “Check all which apply – not all bases
       apply to all programs.” No further instructions on the basis of discrimination are
       provided on the form. This complainant checked the boxes next to “Age” and “Family
       status.”

       CR received the complaint form and sent the complainant a letter stating that he had
       not indicated a connection between the issues he raised and the basis for his
       discrimination complaint. CR’s letter said that because CR could not infer any
       prohibited motives on the part of the USDA agency, it was closing the case file.

       In this situation, the complainant did what was required of him. Without informing
       the complainant of the requirement that there be a connection between the issues and
       the basis, CR closed the case.

       CR did not close all cases as peremptorily as it did the cases described above. For one
       case we reviewed, the complainant did not provide CR with the basis or issue, but
       instead of closing this case, CR sent the complainant an Incomplete Complaint
       Acknowledgment Letter. This letter gave a brief explanation of the complaint process
       and told the complainant what was still required.




USDA/OIG/A 60801-4-Hq                                                                Page 41
       Although this complainant did not provide the required information and CR eventually
       closed his case, he was nevertheless given the opportunity to understand what was
       required of him in the complaint process. The complainants in the other two cases
       described above were not afforded the same opportunity.

       Of 101 selected cases, we found 70 that were closed by CR without giving the
       complainant a chance to understand the process and what CR’s requirements were
       within that process. The others were given the chance to understand the process and
       submit all the required information. CR either contacted these complainants (through
       written correspondence or by telephone) or did not require them to show a correlation
       between issue and basis as it did for others.

Recommendation 16

       Direct CR to ensure, before closing a case, that any complainant who did not provide
       all of the required elements of a complaint, or who did not state a connection between
       “basis” and “issue,” understands that he or she is required to do so.

       CR Response:

       The revised 15-day letter will accomplish this.

       OIG Position:

       In order to reach a management decision, CR needs to ensure that its revised 15-day
       letter noted in our position to Recommendation 11 still contains the appropriate
       clarifying language.

Recommendation 17

       Direct CR to reopen the 70 cases we determined were improperly closed, and to adhere
       to its documented procedures when processing these complaints.

       CR Response:

       CR has drafted a letter that will be mailed to each complainant in the 70 cases. The letter
       states that if the complainant believes his or her complaint was improperly closed, he or
       she may request that the case be reopened. To initiate the process, the complainant need
       only send CR a letter explaining briefly why he or she thinks the case should be
       reopened. CR will reopen any case for which such a letter is received.




USDA/OIG/A 60801-4-Hq                                                                    Page 42
       OIG Position:

       CR’s resolution of this matter involves the active participation of the complainants.
       However, this may not be appropriate, because the cases should not have been closed
       initially. We believe that CR should reopen these cases and send the 70 complainants
       Incomplete Complaint Acknowledgement Letters and then make determinations as
       appropriate.

Recommendation 18

       Direct CR to determine if any other incomplete cases were improperly closed.

       CR Response:

       Based upon review of the total number of closed cases, it is estimated that approximately
       1,900 cases would need to be reviewed for closure to determine the appropriateness of
       closure. CR provided four options to address this concern. A determination will be
       made as to a preferred option.

       OIG Position:

       We will review the information provided and will meet with CR to make a
       determination as to whether we can reach a management decision.




USDA/OIG/A 60801-4-Hq                                                                  Page 43
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS
Rec. No.   Repeat                                             Agency Response          Mgmt.   Action needed for      Recommendation
            Rec.            Recommendation                                              Dec.    Mgmt. Decision
                                                                                                                         Implemented


                    Farm Loan Program - Civil Rights
                    Complaint System - Phase I
                    Audit Number 50801-2-Hq (1)
                                                                                                                   (Yes)
1a         Yes      Send a letter signed by the            CR Director sent a letter   Yes                         Repeated as
                    Secretary to all complainants          to each complainant.                                    recommendation 1a,
                    whose cases have not yet been                                                                  Phase II
                    resolved assuring the
                    complainants that action will be
                    taken. The letter should include
                    an assigned case file number and
                    the name and phone number of a
                    responsible person who knows the
                    general status of the case.

1b                  Immediately assume control of the      CR took control of          Yes                         Yes
                    FSA program complaint system           FSA's program
                    and evaluate the adequacy of           complaint system and
                    FSA's civil rights staffing to carry   assisted in developing
                    out its civil rights mandate.          staff and internal
                                                           controls.

1c                  Reevaluate all discrimination          All complaints closed       No      We identified 26    Partially
                    complaints closed and forwarded        by FSA have been                    cases forwarded
                    to program managers by FSA             reevaluated.                        to program
                    without concurrence from CREA.                                             managers
                                                                                               without
                                                                                               concurrence from
                                                                                               CREA. CR has
                                                                                               reevaluated 21 of
                                                                                               these 26. CR
                                                                                               could not locate
                                                                                               the remaining 5.

1d         Yes      Determine the number of                CR has formalized           Yes                         (Partially)
                    outstanding program complaints         monthly meetings to                                     Repeated as
                    at FSA and other departmental          reconcile complaint                                     recommendation 11c,
                    agencies with the assistance of the    data by Director's                                      Phase V
                    agencies and CREA.                     policy memorandum.




       USDA/OIG/A 60801-4-Hq                                                                                             Page 44
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS
Rec. No.   Repeat                                             Agency Response          Mgmt.   Action needed for      Recommendation
            Rec.             Recommendation                                             Dec.    Mgmt. Decision
                                                                                                                         Implemented

                                                                                                                   (No)
1e         Yes      Develop a data base for the            A comprehensive and         Yes
                                                                                                                   Repeated as
                    outstanding program complaints.        reliable data base is in
                                                                                                                   recommendations 2,
                    The data base should contain the       place.
                                                                                                                   (shown as 3 in exhibit
                    status of a complaint, the official
                                                                                                                   A) Phase I and 11a,
                    responsible for processing the
                                                                                                                   Phase V
                    case, the actions taken to date, the
                    actions needed to resolve the
                    complaint, the days taken to
                    complete specific tasks, and the
                    age of the complaint.
                                                                                                                   (Yes)
1f         Yes      Process complaints still at the        CR task force reviewed      Yes
                                                                                                                   Repeated as
                    agency level.                          their original backlog
                                                                                                                   recommendations 1b,
                                                           cases and made
                                                                                                                   Phase II and 1a, Phase V
                                                           settlements, as they
                                                           deemed appropriate.
                                                                                                                   (Yes)
1g         Yes      Help CREA reduce the original          CR task force reviewed      Yes
                                                                                                                   Repeated as
                    backlog of complaints at the           their original backlog
                                                                                                                   recommendations 1b,
                    departmental level.                    cases and made
                                                                                                                   Phase II and 1a, Phase V
                                                           settlements, as they
                                                           deemed appropriate.
                                                                                                                   (No)
1h         Yes      Evaluate each agency's civil rights    Once CR's staffing is       Yes
                                                                                                                   Repeated as
                    staffing to determine if the agency    completed, its
                                                                                                                   recommendation 6c,
                    has committed adequately trained       compliance unit will
                                                                                                                   Phase V
                    staff and has adequate procedures      conduct a systematic
                    to process complaints.                 analysis of the agencies.

2                   A uniform system is needed             CR has created a unit       Yes                         Yes
                    within the Department that holds       for monitoring agencies
                    designated USDA officials              accountability. Systems
                    responsible and accountable for        have been developed
                    the receipt, processing, and           which require quarterly
                    resolution of program complaints       reporting from the
                    within established timeframes.         agencies on all civil
                                                           rights responsibilities.
                                                           These submissions are
                                                           evaluated and a report
                                                           submitted to the
                                                           Secretary.




       USDA/OIG/A 60801-4-Hq                                                                                             Page 45
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS
Rec. No.   Repeat                                            Agency Response          Mgmt.   Action needed for         Recommendation
            Rec.            Recommendation                                             Dec.    Mgmt. Decision
                                                                                                                         Implemented

                                                                                                                   (No)
3          Yes      A master data base for program        A comprehensive and         Yes
                                                                                                                   Repeated as
                    complaints should be maintained       reliable data base is in
                                                                                                                   recommendations 1e,
                    at the departmental level. This       place.
                                                                                                                   Phase I, 11c, and 11d,
                    data base should be shared with
                                                                                                                   Phase V
                    agencies on a periodic basis to
                    ensure its accuracy.

4                   A weekly distribution of an aging     CR has begun issuing        No      CR needs to          No
                    report of complaints should be        complaint reports on a              provide us with
                    sent to responsible officials. This   monthly basis to all                documentation
                    report should be used as a            agencies.                           that the
                    management tool to identify                                               complaints
                    trends or situations in need of                                           reports include an
                    attention.                                                                aging report of
                                                                                              complaints.
                                                                                                                   (No)
5          Yes      Case files need to be standardized.   CR has secured the          Yes
                                                                                                                   Repeated as
                                                          services of a contractor
                                                                                                                   recommendation 12a,
                                                          to develop and
                                                                                                                   Phase V
                                                          establish the file system
                                                          in accordance to Record
                                                          Book -16. File Plan for
                                                          the Secretary.

6                   Federal and departmental              Department regulations      No      Federal              Partially
                    regulations on processing program     have been issued.                   regulations
                    discrimination complaints need to                                         (CFRs) need to be
                    be updated and published.                                                 updated and
                                                                                              published.

7                   Agencies should develop a             Staff assigned to the       No      We need a            Partially
                    comprehensive management              compliance division                 timeframe as to
                    evaluation review system              will be provided CR                 when these
                    designed to evaluate civil rights     and agency program                  actions will take
                    compliance at all agency levels.      orientation. Annual                 place.
                                                          reports submitted to
                                                          DOJ will be reviewed,
                                                          prior to submission.




       USDA/OIG/A 60801-4-Hq                                                                                             Page 46
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS
Rec.    Repeat                                               Agency Response            Mgmt.     Action     Recommendation
No.      Rec.            Recommendation                                                  Dec.   needed for
                                                                                                               Implemented
                                                                                                  Mgmt.
                                                                                                 Decision

                 Minority Participation in
                 Farm Service Agency's
                 Farm Loan Programs -
                 Phase II
                 Audit Number 50801-3-Hq

1a      Yes      Immediately send a letter signed      CR Director sent a letter to     Yes                  (Yes)
                 by the Secretary or his designee to   each complainant.                                     Repeated
                 all complainants whose cases are                                                            recommendation
                 still open, assuring the                                                                    1a from Phase I
                 complainants that action will be
                 taken.

1b      Yes      Convene ad hoc teams to process       CR convened a task force to      Yes                  (Yes)
                 and significantly reduce the          review the original backlog                           Repeated as
                 original backlog of outstanding       cases.                                                recommendation
                 discrimination complaints.                                                                  1a, Phase V

2a               Revoke the authority that granted     Delegation of authority to       Yes                  Yes
                 FSA responsibility to conduct         FSA to conduct PI’s has been
                 preliminary inquiries of program      revoked.
                 discrimination complaints.

3a               Develop and implement effective       Memorandums to SED's             Yes                  Partially
                 methods of outreach, and              requesting an Outreach
FSA
                 establish uniform standards and       Coordinator and proposed
                 benchmarks by which to evaluate       national Outreach Training
                 outreach performance.                 meets OIG's requirement.

4a               Appoint minority advisors to the      Soliciting candidates for        Yes                  Partially
                 county office committees based on     advisors from the minority
FSA
                 recommendations from the              community or
                 underrepresented groups in the        underrepresented groups is
                 county.                               the process that FSA has
                                                       always intended to follow.

4b               Provide training so that minority     Beginning in 1997 FSA will       Yes                  Partially
                 advisors are aware of their           instruct states to ensure that
FSA
                 responsibilities to inform minority   minority advisors are
                 individuals and farmers about         included in annual training of
                 FSA programs and activities.          COCs.

5a               Work to increase the number of        A memorandum was issued          Yes                  Yes
                 minority employees in FSA             to all SEDs to ensure all
FSA
                 county offices where minority         appropriate groups are
                 groups are underrepresented.          notified for employment.


     USDA/OIG/A 60801-4-Hq                                                                                         Page 47
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS
Rec.    Repeat                                                Agency Response            Mgmt.     Action     Recommendation
No.      Rec.            Recommendation                                                   Dec.   needed for
                                                                                                                Implemented
                                                                                                   Mgmt.
                                                                                                  Decision

6a               Establish pre-application              As part of FSA's Customer        Yes                  Yes
                 interviews with prospective            Service Training schedule for
FSA
                 applicants to determine the nature     August 1998, FSA will
                 of their request and help identify     emphasize that producers are
                 information needed to complete         to be made aware of the fact
                 the application process.               that the Agency must provide
                                                        assistance in completing loan
                                                        applications.

6b               Establish an assistance program        Farm Loan programs               Yes                  Partially
                 that includes provisions for one-      regulations are to be
FSA
                 on-one attention between the loan      published in the FR as a
                 officer and the farmer, and for        proposed rule. It will address
                 farm visits, if necessary, to help     increased assistance to FSA
                 farmers prepare information            borrowers. The proposed
                 needed to complete application         rule is expected to be
                 packages.                              published by June 2000.

6c               Discontinue county office              Agency Instruction 1910-A,       Yes                  Yes
                 committee involvement in               1910.5© states that the
FSA
                 determining creditworthiness of        Agency determines
                 farm applicants.                       creditworthiness. FSA
                                                        continues to issue annual
                                                        notices that FSA loan
                                                        approval officials determine
                                                        credit worthiness.

7a               Establish and maintain a tracking      Notice FLP-90 was issued to      Yes                  Yes
                 system to monitor the servicing of     the field on October 28, 1999.
FSA
                 farm loan accounts, especially in      The notice indicated that
                 connection with delinquency rates      implementation of MAC
                 and borrower responses to              would take place in
                 notification of availability of loan   November or December of
                 service programs, and to ensure        1999. The input system of the
                 equality in the servicing of all       software has been released to
                 farm loan accounts.                    field offices.




     USDA/OIG/A 60801-4-Hq                                                                                          Page 48
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS
Rec.    Repeat                                                Agency Response             Mgmt.     Action     Recommendation
No.      Rec.            Recommendation                                                    Dec.   needed for
                                                                                                                 Implemented
                                                                                                    Mgmt.
                                                                                                   Decision

7b               Make personal contact with those       FSA will contact the borrower     Yes                  Yes
                 borrowers who do not respond to        within 10 working days after
FSA
                 the notifications or the requests      the initial loan servicing
                 for information within the             notice is sent to, determine if
                 prescribed timeframes, and ensure      the borrower received the
                 that the borrowers fully               application material,
                 understand the significance of the     reminded the borrower of the
                 notifications and the requirements     importance of responding,
                 for acquiring loan servicing.          and answer any questions.

7c               Incorporate a review of civil          The recommended changes           Yes                  Yes
                 rights issues in FSA's formal          were included in the fiscal
FSA
                 National Internal Reviews and          year (FY) 2000 NIR Guide
                 County Operations Reviews, and         pages 86,87, and 99. Similar
                 have district directors address        questions were issued in the
                 civil rights issues when               FY 1999 NIR Guide.
                 conducting periodic reviews of
                 loan service centers and county
                 offices.

8a               Seek legislation to "pool" SDA         Legislation was introduced to     Yes                  Yes
                 direct operating loan funds into       Congress regarding the
FSA
                 the national reserve to redistribute   pooling of SDA funds
                 to States with unfunded,               between States. Congress
                 approved direct operating loan         gave consideration to this
                 applications.                          proposal but it was not
                                                        passed. FSA has again
                                                        submitted a legislative
                                                        proposal to the Department.

8b               Develop procedures to establish a      FSA agrees that reserve           Yes                  Yes
                 record keeping system to retain,       records including any lists of
FSA
                 document, and justify funding of       applicants, which have been
                 loan applications from the             funded with reserve funds,
                 national reserve.                      should be maintained for 3
                                                        years.




     USDA/OIG/A 60801-4-Hq                                                                                           Page 49
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS
Rec.    Repeat                                         Agency Response            Mgmt.     Action     Recommendation
No.      Rec.            Recommendation                                            Dec.   needed for
                                                                                                         Implemented
                                                                                            Mgmt.
                                                                                           Decision
                                                                                                       (Yes)
8c               Discontinue the process of      FSA intends to continue this     Yes
                                                                                                       The
                 informally transferring funds   type of transaction because it
FSA                                                                                                    recommendation
                 between States and return all   encourages States to utilize
                                                                                                       was not
                 unused funds to the National    every resource and
                                                                                                       implemented as
                 office for redistribution as    opportunity available to them
                                                                                                       stated. However,
                 appropriate.                    in their efforts to assist
                                                                                                       the explanation
                                                 minority farmers.
                                                                                                       provided was
                                                                                                       adequate.




     USDA/OIG/A 60801-4-Hq                                                                                 Page 50
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS
Rec.    Repeat                                                  Agency Response            Mgmt.      Action        Recommendation
No.      Rec.             Recommendation                                                    Dec.    needed for
                                                                                                                        Implemented
                                                                                                      Mgmt.
                                                                                                     Decision

                 Evaluation of the OCR's Efforts to
                 Reduce the Backlog of Program
                 Complaints - Phase V
                 Audit Number 60801-1-Hq
                                                                                                                   (Yes)
1a      Yes      Immediately convene a complaints         CR convened a task force to      Yes
                                                                                                                   Repeated
                 resolution task force, composed of       review the original backlog
                                                                                                                   recommendation
                 well qualified civil rights personnel    cases.
                                                                                                                   1b from Phase II
                 from other Federal agencies and
                 senior USDA program personnel…
                 who would report to the Secretary.
                                                                                                                   Yes.
1b               Require the Civil Rights Director to     CR 1010 package shows their      Yes
                                                                                                                   The Program
                 implement a system which demands         realignment. OHRM has
                                                                                                                   Adjudication
                 a higher level of supervision over       approved all management
                                                                                                                   Division is now
                 the complaints process and makes         positions and vacancy
                                                                                                                   responsible for this.
                 the PID Chief responsible for closely    announcements are closed.
                 reviewing all proposed and final         Interviews will start when the
                 decisions.                               certified candidates list is
                                                          forwarded to CR.

1c               Request OGC's legal sufficiency          OGC reviewed and returned        No      CR needs to     No
                 review for the seven cases closed        the cases with a concurrence             provide us
                 with no findings of discrimination       on the findings of no                    with the
                 adjudicated based on the agency          discrimination.                          documenta-
                 preliminary inquiry.                                                              tion from
                                                                                                   OGC that
                                                                                                   details that
                                                                                                   the cases
                                                                                                   were
                                                                                                   reviewed.

2a               Assure that the task force assists the   Manuals on conducting            No      Draft           No
                 CR Director in reviewing the new         investigations will be                   manuals do
                 backlog and in recommending              completed by July 30, 1999.              not
                 process changes, to include a system                                              incorporate a
                 that emphasizes involvement of the                                                case
                 complainant and a case                                                            management
                 management team approach to the                                                   team
                 resolution of the complaint from the                                              approach.
                 initial phases of the process.




       USDA/OIG/A 60801-4-Hq                                                                                            Page 51
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS
Rec.    Repeat                                                 Agency Response             Mgmt.      Action        Recommendation
No.      Rec.             Recommendation                                                    Dec.    needed for
                                                                                                                         Implemented
                                                                                                      Mgmt.
                                                                                                     Decision

2b               Require USDA agencies to abide by      Assistant Secretary for            No      CR needs to      No
                 CR instructions, limit their 24-day    Administration issued memo                 provide us
                 reviews to fact-finding, and           to Under Secretaries directing             with the
                 immediately stop obtaining signed      them to limit their fact-finding           ASA memo.
                 statements from complainants and       to the 24-day time limit and to            Note: The
                 other individuals not employed by      stop obtaining signed                      memo was
                 USDA.                                  statements from complainants               not attached
                                                        and non-USDA employees.                    to the CR
                                                                                                   response.

3a               Direct CR to appropriately plan        The manual on how to conduct       No      Manuals still    No
                 investigations and to conduct          investigations will be                     in draft as of
                 investigations in an effective and     implemented effective July 30,             November
                 efficient manner. At a minimum,        1999.                                      1999.
                 investigative plans should be                                                     However,
                 reviewed by a CR manager who                                                      the draft
                 should also be following up to                                                    manual does
                 ensure that investigations are                                                    not address
                 proceeding as planned.                                                            all our
                                                                                                   concerns.

3b               Direct CR to design and implement      The head of the investigative      No      Standard         No
                 a quality control system over the      unit will review investigation             operating
                 review process for reports of          reports. Adjudication unit will            procedures
                 investigation. At a minimum, the       also review reports.                       not
                 system should include tracking                                                    completed as
                 procedures for recording the dates                                                of December
                 of reviews, the deficiencies noted,                                               1999. These
                 the corrective actions taken, the                                                 procedures
                 adequacy of actions taken, and the                                                do not
                 number of times and to whom                                                       address our
                 deficient reports are returned.                                                   concerns.
                                                                                                                    (Partially)
4a      Yes      Require the CR Director to close       CR has assigned a special          Yes
                                                                                                                    Repeated as
                 cases only after all terms and         Assistant to the Director to
                                                                                                                    recommendation
                 conditions of settlement agreements    track all settlement
                                                                                                                    1a, Phase VI
                 and other required agency              agreements.
                 corrective actions are implemented.
                                                                                                                    (Partially)
4b      Yes      Direct CR to immediately establish a   All regulations, manuals, and      Yes
                                                                                                                    Repeated as
                 system to control and monitor          standard internal procedures
                                                                                                                    recommendation
                 implementation of settlement           will be implemented by July
                                                                                                                    1a, Phase VI
                 agreements.                            30, 1999.




       USDA/OIG/A 60801-4-Hq                                                                                             Page 52
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS
Rec.    Repeat                                                Agency Response             Mgmt.      Action         Recommendation
No.      Rec.             Recommendation                                                   Dec.    needed for
                                                                                                                        Implemented
                                                                                                     Mgmt.
                                                                                                    Decision

4c               Direct CR to review the five           A task force was established to   No      Four of the 5    Partially
                 administratively closed cases that     review all administrative                 cases we
                 did not contain any evidence to        closed cases.                             cited were
                 support closing them.                                                            reviewed.
                                                                                                  The fifth one
                                                                                                  was not
                                                                                                  assigned for
                                                                                                  a review,
                                                                                                  and still
                                                                                                  needs to be
                                                                                                  reviewed.

5a               Direct CR to create a position for     CR's budget was approved          No      A date for       Partially
                 managing the contracts to provide      February 6, 1999. Plan was                the
                 proper and timely oversight of the     cleared on May 1, 1999. The               advertising
                 quality of the work submitted by       1010 package shows the                    of the
                 contractors.                           identification of the position.           position
                                                        All positions have been cleared           needs to be
                                                        by OHRM and were to be                    established.
                                                        announced by June 15, 1999.

6a               Direct CR, in consultation with        The MOU with HUD is being         No      CR needs to      No
                 OGC, to amend the MOU to include       reviewed to determine if it               determine
                 the requirement that HUD forward       should be continued.                      whether the
                 all future complaints against USDA                                               MOU needs
                 employees to CR.                                                                 to be revised
                                                                                                  or
                                                                                                  discontinued

6b               Direct CR to immediately determine     The task forces have reviewed     No      CR needs to      No
                 the status of 24 possible complaints   the cases from HUD along                  identify the
                 against USDA employees that are        with other cases.                         cases
                 currently in HUD's intake process                                                reviewed
                 and to analyze these for resolution.                                             from HUD
                                                                                                  and provide
                                                                                                  us with the
                                                                                                  results of the
                                                                                                  reviews.




       USDA/OIG/A 60801-4-Hq                                                                                            Page 53
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS
Rec.    Repeat                                                 Agency Response            Mgmt.      Action        Recommendation
No.      Rec.             Recommendation                                                   Dec.    needed for
                                                                                                                       Implemented
                                                                                                     Mgmt.
                                                                                                    Decision
                                                                                                                  (No)
6c      Yes      Direct CR to immediately conduct        CR is not considering            No      We need a
                                                                                                                  Repeated
                 surveys of all USDA programs to         executing any MOUs.                      timeframe
                                                                                                                  recommendation
                 determine the need to execute           Appropriate monitoring by                and schedule
                                                                                                                  1h from Phase I
                 additional MOU's to ensure that         CR’s enhanced compliance                 for
                 civil rights complaint processing       unit will ensure compliance.             conducting
                 and compliance review procedures                                                 the
                 adhere to established standards.                                                 systematic
                                                                                                  analysis of
                                                                                                  each
                                                                                                  agencies’
                                                                                                  civil rights
                                                                                                  staff.

6d               Direct CR to keep open the cases it     CR's new tracking system will    No      A procedure     No
                 refers to FNS. Oversee, monitor,        identify all cases referred to           needs to be
                 and track complaint resolution for      FNS.                                     developed
                 FNS and all future agencies with                                                 and issued
                 MOU’s to ensure complaints receive                                               which
                 a fair hearing.                                                                  addresses the
                                                                                                  issues in our
                                                                                                  recommen-
                                                                                                  dation.

7a               Establish an Assistant Secretary for    Effective FY 2000 CR will not    Yes                     Partially
                 Civil Rights at the sub cabinet-level   be a part of Departmental
                 to resolve cross-cutting issues         Administration. Legislation
                 between agencies and CR.                has been introduced for an
                                                         Assistant Secretary for Civil
                                                         Rights.

8a               Require the CR Director to place        CR will give due consideration   Yes                     Yes
                 high priority on hiring civil rights    to candidates with strong
                 managers who have a strong              knowledge, skills, and
                 background in civil rights and          experience in civil rights. CR
                 knowledge of USDA programs and          will ensure that all managers
                 delivery systems.                       receive training in USDA
                                                         programs.




       USDA/OIG/A 60801-4-Hq                                                                                           Page 54
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS
Rec.    Repeat                                                  Agency Response             Mgmt.      Action       Recommendation
No.      Rec.             Recommendation                                                     Dec.    needed for
                                                                                                                      Implemented
                                                                                                       Mgmt.
                                                                                                      Decision

9a               Develop staff training plans that       CR is assessing specific skills    No      CR needs to    Partially
                 adequately reflect the training needs   needed for policy, compliance,             provide us
                 of the agency.                          investigation, adjudication,               with their
                                                         EEO complaint processing and               assessment
                                                         training.                                  for training
                                                                                                    and
                                                                                                    timeframes
                                                                                                    for
                                                                                                    establishing
                                                                                                    training
                                                                                                    plans.

9b               Provide training to staff personnel     DOJ conducted its training,        No      CR needs to    Partially
                 as soon as possible, when it is         May 18 - 20, 1999.                         provide us
                 determined that specific members of                                                with time
                 the staff have not received necessary                                              frames for
                 training to properly perform their                                                 the Howard
                 assigned tasks.                                                                    University
                                                                                                    training.

10a              Provide a mechanism for employee        CR solicited important ideas       No      CR needs to    Partially
                 input into office operations through    from its management team                   provide us
                 quality control sessions and other      and key staff members prior to             with the
                 forums.                                 developing its reorganization.             specific
                                                                                                    methods or
                                                                                                    opportuni-
                                                                                                    ties that
                                                                                                    made input
                                                                                                    available to
                                                                                                    all
                                                                                                    employees.
                                                                                                                   (No)
11a     Yes      Before the new data base is             A contractor has been secured      No      CR needs to
                                                                                                                   Repeated
                 implemented, direct CR to ensure        to establish and set up a filing           ensure the
                                                                                                                   recommendation
                 the integrity of the data in its        system.                                    integrity of
                                                                                                                   1e from Phase I
                 current data base.                                                                 its ProgCom
                                                                                                    data base,
                                                                                                    since old
                                                                                                    complaints
                                                                                                    will not be
                                                                                                    transferred
                                                                                                    to the new
                                                                                                    data base.




       USDA/OIG/A 60801-4-Hq                                                                                          Page 55
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS
Rec.    Repeat                                                 Agency Response            Mgmt.      Action        Recommendation
No.      Rec.             Recommendation                                                   Dec.    needed for
                                                                                                                        Implemented
                                                                                                     Mgmt.
                                                                                                    Decision

11b              Direct CR to establish a second-        The processes already in place   No      CR needs to      No
                 party review process to ensure the      will ensure the second party             provide us
                 data is reviewed at the time it is      review procedures for                    with the
                 entered and that all relevant case      information entered into the             timeframes
                 data is reviewed at the time the case   data system.                             that the
                 is closed.                                                                       second party
                                                                                                  review
                                                                                                  procedures
                                                                                                  will be
                                                                                                  formalized
                                                                                                  and
                                                                                                  implemented
                                                                                                  .
                                                                                                                   (Partially)
11c     Yes      Direct CR to institutionalize a         CR has been conducting           No      CR needs to
                                                                                                                   Repeated
                 process of reconciliation that holds    monthly meetings with agency             provide us
                                                                                                                   recommendation
                 each agency head accountable for        staff to reconcile complaint             with
                                                                                                                   1d and 3 from
                 reconciling its data with that of CR.   data according to Director's             documenta-
                                                                                                                   Phase I.
                                                         policy memorandum.                       tion that the
                                                                                                  reconcilia-
                                                                                                  tion process
                                                                                                  has been
                                                                                                  included in
                                                                                                  their
                                                                                                  standard
                                                                                                  operating
                                                                                                  procedures.
                                                                                                  This process
                                                                                                  needs to be
                                                                                                  formalized,
                                                                                                  to ensure
                                                                                                  that all data
                                                                                                  bases are
                                                                                                  updated
                                                                                                  based on the
                                                                                                  results of the
                                                                                                  monthly
                                                                                                  meetings
                                                                                                  with
                                                                                                  agencies.




       USDA/OIG/A 60801-4-Hq                                                                                            Page 56
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS
Rec.    Repeat                                                 Agency Response            Mgmt.      Action        Recommendation
No.      Rec.             Recommendation                                                   Dec.    needed for
                                                                                                                        Implemented
                                                                                                     Mgmt.
                                                                                                    Decision
                                                                                                                   (No)
11d     Yes      Direct CR to cleanse the current data   All new and backlogged case      No      CR needs to
                                                                                                                   Repeated
                 base by reconciling all cases in CR's   files have been located,                 reconcile its
                                                                                                                   recommendation 3
                 data base with agency data, and by      properly identified, and                 data base
                                                                                                                   from Phase I.
                 determining the identity and status     secured.                                 with agency
                 of the 130 missing cases and the                                                 data and
                 additional 33 cases from FSA.                                                    make
                                                                                                  changes as
                                                                                                  needed. CR
                                                                                                  also needs to
                                                                                                  locate the
                                                                                                  missing files
                                                                                                  or provide
                                                                                                  an
                                                                                                  explanation
                                                                                                  as to why the
                                                                                                  files can not
                                                                                                  be found.

12a     Yes      The complaints resolution task force    The systematic survey of all     No      The task         (No)
                 should immediately establish            case files has been done,                force never      Repeated
                 control of the files to ensure their    although it is an ongoing                performed        recommendation 5
                 integrity and to perform a              process.                                 the sweep of     from Phase I.
                 document-by-document sweep of                                                    the files. CR
                 the files.                                                                       should
                                                                                                  provide a
                                                                                                  date as to
                                                                                                  when this
                                                                                                  will be
                                                                                                  completed.

12b              Direct CR to find the 40 missing        All new and backlogged           No      CR needs to      No
                 files.                                  complaint case files have been           locate the
                                                         located, properly identified             fourteen case
                                                         and stored in the file room.             files that are
                                                                                                  still missing.

13a              Direct CR either to issue within a 2-   Departmental regulations for     Yes                      Yes
                 month timeframe the departmental        employment and program
                 regulations governing the receipt,      complaints are complete.
                 processing, and resolution of
                 discrimination complaints, or to
                 consider alternative means of
                 hastening the issuance of these
                 documents.




       USDA/OIG/A 60801-4-Hq                                                                                            Page 57
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS
Rec.    Repeat                                               Agency Response           Mgmt.      Action         Recommendation
No.      Rec.             Recommendation                                                Dec.    needed for
                                                                                                                     Implemented
                                                                                                  Mgmt.
                                                                                                 Decision

14a              Direct CR to issue within a 2-month   The SOPs will be completed      No      SOPs are still   Partially
                 timeframe standard operating          and implemented by July 30,             in draft form,
                 procedures for program complaint      1999.                                   we need an
                 processing.                                                                   estimated
                                                                                               completion
                                                                                               date.

15a              Direct CR to resolve within 2         CR has implemented several of   No      Based on         No
                 months all recommendations that       the recommendations from the            responses to
                 we made in our Phase I and Phase II   previous reports.                       Phase I and
                 reports and that CR has failed to                                             II.
                 implement.




       USDA/OIG/A 60801-4-Hq                                                                                         Page 58
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS

 Rec.     Repeat                                    Agency Response             Mgmt.      Action needed for         Recommendation
 No.       Rec.       Recommendation                                             Dec.       Mgmt. Decision             Implemented


                   Evaluation of the
                   OCR's Efforts to
                   Implement Civil Rights
                   Settlements
                   Audit Number 60801-2-
                   Hq

1a        Yes      Require the CR Director    CR has completed the              No      In order for us to reach a   (Partially)
                   to immediately             development of procedures                 management decision,         Repeated
                   implement procedures       for monitoring and tracking               CR needs to provide us       recommendations
                   to review conciliation     settlement and conciliation               a timeframe for the          4a and 4b from
                   agreements reached at      agreements. These                         finalization of the draft    Phase V
                   the agency level, and to   procedures are outlined in the            procedures.
                   monitor and track all      draft CR procedures manuals.
                   settlement and              These procedures remain in
                   conciliation agreements    draft and are under review by
                   applicable to all USDA     the Office of the General
                   agencies, and ensure       Counsel. CR has developed
                   their complete and         an independent database to
                   expeditious                monitor and track these
                   implementation.            agreements.



1b                 Direct CR to provide       The procedures referenced in      No      In order for us to reach a   Partially
                   guidance to agencies       1a are in final draft and under           management decision,
                   regarding the              review by the Office of the               we need an estimated
                   establishment of           General Counsel. These draft              completion date for the
                   appropriate systems for    procedures were shared with               referenced procedures.
                   monitoring and tracking    the agency civil rights
                   conciliation agreements.   directors in August 1999 and
                                              limited feedback was
                                              received. Agencies were
                                              instructed to establish
                                              procedures for processing
                                              complaints internally in
                                              compliance with these
                                              procedures.




        USDA/OIG/A 60801-4-Hq                                                                                          Page 59
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS

 Rec.     Repeat                                    Agency Response             Mgmt.      Action needed for         Recommendation
 No.       Rec.       Recommendation                                             Dec.       Mgmt. Decision             Implemented



1c                 Direct CR to report to     The Director, CR reports to      No       In order for us to reach a   Partially
                   the Secretary on a         the Secretary on the status of            management decision
                   semiannual basis those     all settlement agreements as              we need to be assured
                   terms, which have not      part of the annual                        that the annual
                   yet been implemented.      performance review process                performance reports are
                                                                                        being submitted to the
                                                                                        Secretary, and they
                                                                                        contain information
                                                                                        related to settlement
                                                                                        agreement terms that
                                                                                        have not been
                                                                                        implemented.
                                              CR and OHRM have drafted
2a                 Direct CR, in                                               Yes                                   Partially
                                              a policy for handling
                   consultation with OGC
                                              disciplinary and corrective
                   and the OHRM, to
                                              actions based on findings of
                   include a "disciplinary
                                              discrimination by CR. The
                   action" section in the
                                              policy has gone through
                   departmental
                                              clearance and is currently in
                   regulations as a means
                                              the Secretary’s Office for
                   of formalizing general
                                              signature.
                   requirements and
                   procedures applicable to
                   employees cited by
                   complainants in
                   program discrimination
                   cases who have acted in
                   an improper manner.

2b                 Direct CR to forward to    While discussions have been      No       Before we can agree to a     Partially
                   the OHRM all prior         initiated with OHRM to                    management decision,
                   settlement agreement       determine how best to report              CR needs to assure us
                   cases in which             findings of discrimination                that they plan to
                   discipline might be        and misconduct which would                continue to develop a
                   appropriate, and direct    require and support taking                liaison with OHRM to
                   CR to follow up on the     disciplinary and corrective               determine if any
                   cases to determine if      actions, a process remains to             disciplinary actions are
                   any actions are taken.     be developed.                             taken. Also, the prior
                                                                                        settlement agreements
                                                                                        should be forwarded to
                                                                                        OHRM to determine if
                                                                                        disciplinary actions are
                                                                                        needed.




        USDA/OIG/A 60801-4-Hq                                                                                          Page 60
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS

 Rec.     Repeat                                       Agency Response               Mgmt.      Action needed for       Recommendation
 No.       Rec.       Recommendation                                                  Dec.       Mgmt. Decision           Implemented



3a                 Direct CR to formalize       See response to 1a, which will      No       The response to 1a does    No
                   its conciliation policy in   not require implementation of                not respond to the issue
                   the Department               this recommendation.                         of encouraging agencies
                   regulations to                                                            to conciliate with
                   encourage conciliation                                                    complainants early in
                   with complainants in                                                      the complaint process.
                   program discrimination                                                    CR needs to formalize
                   cases early in the                                                        its conciliation policy.
                   complaint process.

4a                 Require the CR Director      CR instructed FSA to                Yes                                 Yes
                   to instruct FSA to obtain    implement the term of the
                   an OGC opinion on            settlement agreement for the
                   whether the one              one applicant or to provide
                   complainant is eligible      an explanation to CR if it is
                   for priority                 unable to do so. FSA’s
                   consideration for            provided us a copy of the
                   inventory property           letter that the State office sent
                   under the definition of a    to the complainant to notify
                   Socially Disadvantaged       him of the availability of
                   Applicant; and if so,        inventory property.
                   immediately notify the
                   one complainant of the
                   availability or
                   unavailability of
                   inventory property in
                   accordance with his
                   settlement agreement.




        USDA/OIG/A 60801-4-Hq                                                                                            Page 61
EXHIBIT A - SUMMARY OF RECOMMENDATIONS FOR CIVIL RIGHTS AUDITS

 Rec.     Repeat                                   Agency Response           Mgmt.      Action needed for       Recommendation
 No.       Rec.       Recommendation                                          Dec.       Mgmt. Decision           Implemented


                                              CR continues to implement
4b                 Require the CR Director                                   No      We continue to believe     No
                                              this recommendation. The
                   to assemble and chair a                                           that it would be in the
                                              OGC, Civil Rights Division
                   team of OGC civil rights                                          best interest of the
                                              attorneys participate in
                   attorneys and cognizant                                           Department, for CR to
                                              settlement negotiations and
                   agency program                                                    assemble and chair a
                                              review findings of
                   officials that will meet                                          team of OGC attorneys
                                              discrimination for legal
                   prior to each agreement                                           and cognizant agency
                                              sufficiency. CR has staff in
                   negotiation to: (a)                                               program officials prior
                                              Programs who review
                   perform an expeditious                                            to presentation of the
                                              information from the
                   review of the economic                                            settlement agreement to
                                              complainants and economists
                   analyses and other                                                the complainant. This
                                              in the Tracking and
                   information compiled as                                           process will help ensure
                                              Applications Division who
                   support for the terms                                             that all terms of the
                                              perform the economic
                   proposed in the                                                   agreement are proper
                                              analyses to support
                   settlement agreement                                              and can be
                                              settlement offers.
                   and (b) analyze all                                               implemented.
                   components of the
                   agreement prior to
                   presentation to the
                   complainant to assure
                   they conform with
                   applicable statutes,
                   Departmental
                   regulations, and
                   program regulations.
                   Every effort should be
                   made to assure that
                   these procedures do not
                   inhibit cases from
                   moving through the
                   process within 180 days.




        USDA/OIG/A 60801-4-Hq                                                                                    Page 62
EXHIBIT B - INTEND CASES NOT LOCATED (83)

 Counter Case ID       Agency          Date of Complaint         Counter Case ID Agency   Date of Complaint
          1      1272 FSA                                   A/        43   3332 FSA                           A/
          2      2848 FSA                                   A/        44   1523 FSA                           A/
          3      2880 FSA                                   A/        45   1705 FS                            A/
          4      2664 FSA                                   A/        46   3371 FSA               May 25, 1999
          5      1897 RHS                                   A/        47   3374 NRCS                          A/
          6      1277 FSA                                   A/        48   3318 FSA          November 23, 1998
          7      2217 NRCS/FSA                              A/        49   1318 FSA                           A/
          8      2733 FSA                                   A/        50   2510 APHIS          October 24, 1998
          9      1348 FSA                                   A/        51   3060 FSA                           A/
         10      2960 FSA                     January 11, 1999        52   3188 FSA                           A/
         11      2480 A/                       October 9, 1998        53   3069 FSA                           A/
         12      2528 FNS                                   A/        54   3016 FSA                           A/
         13      2328 RD                                    A/        55   3322 FSA                April 5, 1999
         14      1265 FSA                                   A/        56   2591 FSA                           A/
         15      1407 FSA                                   A/        57   2564 FSA           November 4, 1998
         16      1260 FSA                                   A/        58   3133 A/                            A/
         17      1898 RHS                                   A/        59   2707 FSA                           A/
         18      3431 A/                          July 9, 1999        60   1602 FSA                           A/
         19      3379 FSA                        May 24, 1999         61   1659 FSA                           A/
         20      1338 FSA                                   A/        62   2683 FSA                           A/
         21      1471 FSA                                   A/        63   1439 FSA                           A/
         22      2684 FSA/NRCS                              A/        64   1288 FSA                           A/
         23      2563 A/                                    A/        65   2266 FSA                           A/
         24      2951 FSA                                   A/        66   3348 A/                            A/
         25      2406 NRCS                                  A/        67   2756 FSA                           A/
         26      2355 FSA                                   A/        68   3347 A/                            A/
         27      1717 FSA                                   A/        69   3382 A/                            A/
         28      3375 FSA                                   A/        70   1935 RHS                           A/
         29      2806 RHS                   November 25, 1998         71   1319 FSA                           A/
         30      2923 FSA                                   A/        72   1470 FSA                           A/
         31      1601 FSA                                   A/        73   3093 RHS                           A/
         32      3384 A/                     February 19, 1999        74   2487 FSA             October 7, 1998
         33      1352 FSA                                   A/        75   3414 A/                            A/
         34      2926 FSA                                   A/        76   3370 FSA              April 15, 1999
         35      1440 FSA                                   A/        77   1608 FSA                           A/
         36      2819 A/                                    A/        78   3141 RD                            A/
         37      2461 FSA                    November 2, 1998         79   2901 FSA                           A/
         38      1329 RHS                                   A/        80   2939 FSA                           A/
         39      2716 FSA                                   A/        81   3364 FNS                           A/
         40      3149 FSA                                   A/        82   2334 FSA                           A/
         41      3146 A/                                    A/        83   2513 A/                            A/
         42      3358 FNS                                   A/
A/ This field is blank in CR’s data base.




USDA/OIG/A 60801-4-Hq                                                                              Page 63
EXHIBIT C – SECRETARY’S REQUEST LETTER




USDA/OIG/A 60801-4-Hq                    Page 64
EXHIBIT C – SECRETARY’S REQUEST LETTER




USDA/OIG/A 60801-4-Hq                    Page 65
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 66
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 67
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 68
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 69
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 70
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 71
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 72
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 73
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 74
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 75
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 76
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 77
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 78
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 79
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 80
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 81
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 82
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 83
EXHIBIT D – AGENCY’S RESPONSE TO DRAFT REPORT




USDA/OIG/A 60801-4-Hq                           Page 84
